<html>
<title> - A REVIEW OF CHILD NUTRITION PROGRAMS</title>
<body><pre>[Senate Hearing 114-149]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-149

                  A REVIEW OF CHILD NUTRITION PROGRAMS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION


                               __________

                              MAY 7, 2015

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Available via the World Wide Web: http://www.fdsys.gov/


                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-177 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001










           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                     PAT ROBERTS, Kansas, Chairman

THAD COCHRAN, Mississippi            DEBBIE STABENOW, Michigan
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
JOHN BOOZMAN, Arkansas               SHERROD BROWN, Ohio
JOHN HOEVEN, North Dakota            AMY KLOBUCHAR, Minnesota
DAVID PERDUE, Georgia                MICHAEL BENNET, Colorado
JONI ERNST, Iowa                     KIRSTEN GILLIBRAND, New York
THOM TILLIS, North Carolina          JOE DONNELLY, Indiana
BEN SASSE, Nebraska                  HEIDI HEITKAMP, North Dakota
CHARLES GRASSLEY, Iowa               ROBERT P. CASEY, Jr., Pennsylvania
JOHN THUNE, South Dakota

               Joel T. Leftwich, Majority Staff Director
                Anne C. Hazlett, Majority Chief Counsel
                    Jessica L. Williams, Chief Clerk
             Christopher J. Adamo, Minority Staff Director
              Jonathan J. Cordone, Minority Chief Counsel

                                  (ii)






















  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

A Review of Child Nutrition Programs.............................     1

                              ----------                              

                         Thursday, May 7, 2015
                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     4

                                Panel I

Lord, Stephen M., Managing Director, Forensic Audits and 
  Investigative Service, U.S. Government Accountability Office, 
  Washington, DC.................................................     6
Neuberger, Zoe, Senior Policy Analyst, Center on Budget and 
  Policy Priorities, Washington, DC..............................     8

                                Panel II

Riendeau, Brian, Executive Director, Dare to Care Food Bank, 
  Louisville, KY.................................................    27
Goff, Richard, Executive Director, Office of Child Nutrition, 
  West Virginia Department of Education, Charleston, WV..........    29
Jones, Cindy, Business Management Coordinator, Food Production 
  Facility, Olathe Unified School District 233, Olathe, KS.......    31
Hassink, Dr. Sandra G., President, American Academy of 
  Pediatrics, Wilmington, DE.....................................    33
                              ----------                              

                                APPENDIX

Prepared Statements:
    Casey, Hon. Robert, Jr.......................................    48
    Leahy, Hon. Patrick J........................................    50
    Goff, Richard................................................    52
    Hassink, Sandra G............................................    58
    Jones, Cindy.................................................    66
    Lord, Stephen M..............................................    69
    Neuberger, Zoe...............................................    84
    Riendeau, Brian..............................................   101
Question and Answer:
Goff, Richard:
    Written response to questions from Hon. Debbie Stabenow......   112
    Written response to questions from Hon. Michael Bennet.......   114
    Written response to questions from Hon. Sherrod Brown........   117
    Written response to questions from Hon. Robert Casey, Jr.....   119
    Written response to questions from Hon. Heidi Heitkamp.......   124
    Written response to questions from Hon. Patrick J. Leahy.....   124
    Written response to questions from Hon. Thom Tillis..........   128
Hassink, Sandra G.:
    Written response to questions from Hon. Debbie Stabenow......   132
    Written response to questions from Hon. Michael Bennet.......   135
    Written response to questions from Hon. Sherrod Brown........   139
    Written response to questions from Hon. Robert Casey, Jr.....   140
    Written response to questions from Hon. Heidi Heitkamp.......   142
    Written response to questions from Hon. Patrick J. Leahy.....   142
Jones, Cindy:
    Written response to questions from Hon. Debbie Stabenow......   145
    Written response to questions from Hon. Michael Bennet.......   145
    Written response to questions from Hon. Robert Casey, Jr.....   147
    Written response to questions from Hon. Heidi Heitkamp.......   148
Lord, Stephen M.:
    Written response to questions from Hon. Debbie Stabenow......   150
    Written response to questions from Hon. Robert Casey, Jr.....   151
Neuberger, Zoe:
    Written response to questions from Hon. Debbie Stabenow......   153
Riendeau, Brian:
    Written response to questions from Hon. Debbie Stabenow......   155
    Written response to questions from Hon. Michael Bennet.......   158
    Written response to questions from Hon. Sherrod Brown........   162
    Written response to questions from Hon. Robert Casey, Jr.....   163

 
                  A REVIEW OF CHILD NUTRITION PROGRAMS

                              ----------                              


                         Thursday, May 7, 2015

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The committee met, pursuant to notice, at 10:05 a.m., in 
room 216, Hart Senate Office Building, Hon. Pat Roberts, 
Chairman of the Committee, presiding.
    Present or submitting a statement: Senators Roberts, 
Boozman, Hoeven, Perdue, Ernst, Tillis, Grassley, Thune, 
Stabenow, Brown, Klobuchar, Bennet, Gillibrand, Donnelly, 
Heitkamp, and Casey.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. Good morning. I call this meeting of the 
Senate Committee on Agriculture to order.
    Welcome to our first hearing on child nutrition 
reauthorization in this Congress. I commend my colleague, 
Senator Stabenow, for her leadership on this issue, and more 
especially, the hearings she held last year.
    The Richard B. Russell National School Lunch Act and the 
Child Nutrition Act of 1966 authorize critical programs of 
great importance for Kansas, our nation, our farmers, our 
ranchers, our growers, and our vulnerable populations, 
including, of course, hungry children.
    The School Lunch Program was originally created as a 
measure of national security, ``to safeguard the health and 
well-being of the nation's children and to encourage the 
domestic consumption of nutritious agricultural commodities.''
    Coming out of World War II, Congress saw the need to 
establish the School Lunch Program, in no small part to ensure 
our military had a sufficient supply of eligible individuals to 
defend our nation from global threats.
    Additionally, the current research regarding the need for 
adequate nutrition during a person's developmental stages 
provides further support for what Congress knew even back then. 
Hungry children do not learn.
    With threats to our national security and increasing 
economic competition, it is imperative that our nation's youth 
are physically fit for military service and are not 
malnourished at key times in brain development.
    Furthermore, the original two-fold intent of the program 
still holds true today. First, the programs provide a safety 
net for our most vulnerable populations, mainly children, that 
are at times without sufficient food.
    Second, the law requires a portion of the assistance for 
the school meal programs to be in the form of agriculture 
commodities produced here in America by our nation's farmers, 
ranchers, and growers.
    As we begin the reauthorization process, it is important to 
remember the purpose of these programs. These programs are not 
about anyone's legacy. They are about ensuring our nation's 
security, ensuring that our children are well educated and 
productive contributors to a competitive economy, and about 
helping the vulnerable among us who cannot help themselves.
    I plan to conduct this reauthorization, with full 
cooperation with our distinguished Ranking Member, in the same 
way in which I am seeking to conduct all of our business here 
at the Agriculture Committee. First, with the perspective of 
our constituents in mind. We are here for farmers, ranchers 
small businesses, rural communities, and program participants 
and stakeholders. We are here to write their interests and 
their will into law, not to impose the government's will and 
interest on them.
    Second, this reauthorization will include rigorous and 
thorough oversight of these programs. Periodic expiration and 
reauthorization of legislation provides Congress with the 
opportunity to review and evaluate programs, and this 
opportunity should not be taken for granted. It is our 
responsibility to closely examine each program. Not every 
program needs a major overhaul, but every Federal program can 
benefit from increased efficiency, improved integrity, and 
reduction of waste.
    Our committee will conduct this reauthorization in an open 
and transparent manner that gives members an opportunity to 
pass good legislation for their constituents. I would like for 
this to be a bipartisan bill, and I am pleased that Senator 
Stabenow feels the same way. With the entire committee working 
together, we can develop a well-rounded bill that will improve 
the operation of these important programs.
    It is also my intention to complete this reauthorization on 
time, before the programs expire at the end of September. I 
understand there are some that may prefer that we not succeed 
in this endeavor. I caution those individuals that these 
programs are too important not to reauthorize. Gambling, 
fortune telling, or using a crystal ball to predict a better 
reauthorization in the future is foolish and short-sighted. It 
is time for folks to come together and be part of crafting 
legislation, not to stand outside the process hoping it fails.
    We have been in a listening mode in preparation for this 
reauthorization and that culminates in today's hearing. I have 
traveled throughout Kansas, visiting school food directors, 
talking with parents, students, school administrators, and 
others involved in these programs. We have had hearings last 
year and we have our experts here today. As we seek to put what 
we have learned into legislative form, several priorities have 
become clear.
    First, reauthorization provides an opportunity to review 
programs and improve their efficiency and effectiveness. In the 
school meal programs, there are significant error rates and 
improper payment levels. These have recently been highlighted 
in reports from the Department of Agriculture's Office of 
Inspector General and the Government Accountability Office. We 
will need to improve the administration of these programs to 
reduce errors, but do so in a way that does not layer 
additional Federal bureaucracy and overreach on those who are 
seeking to feed hungry schoolchildren.
    Second, it is evident that evolving programs encounter 
different challenges as they try to adapt to changing times. 
Each new challenge is met with additional modifications, 
guidance, or regulation, and these can unintentionally evolve 
into very complicated systems that are often outdated or 
needlessly cumbersome. We need to identify areas in which we 
can simplify, make things easier for those implementing and 
participating in the programs.
    Third, my travels in Kansas, and I am sure that this 
opinion is shared by many on this committee, have also 
indicated that we need some flexibility. Many folks are worried 
about what flexibility means. But to me, flexibility means we 
will still protect the tremendous gains already achieved by 
many and provide assistance to others so they, too, may achieve 
success. These programs cannot help anyone if they are not 
workable.
    The Department of Agriculture and others have worked very 
hard to help those who are not meeting the current standards 
and have promoted statistics citing high rates of compliance. 
Yet, we have schools that are currently struggling. I 
understand that at least 46 States applied for the recent whole 
grain waiver, and we have additional sodium restrictions that 
are still on the way. Lines in the sand and uncompromising 
positions will benefit nobody, and especially not the hungry 
children that these programs serve. Working together, I am 
confident we can find a way to preserve the nutritional quality 
of school meals without a one-size-fits-all approach that 
prevents some local flexibility.
    These programs have historically had strong bipartisan 
support. In 2004 and 2010, child nutrition reauthorizations 
passed the Senate by unanimous consent. But, debate leading up 
to those bills also included significant controversy similar to 
the issues we face today. Yet, Republicans and Democrats worked 
through the process together and came up with legislation that 
everybody could support.
    Finally, it is vital that this legislation does not contain 
additional spending without an offset. That is just where we 
are. We have received many bipartisan suggestions for ways to 
improve these programs, but many of those have considerable 
price tags. Our budgetary constraints are real. Our 
responsibility to our constituents includes not spending money 
that we do not have.
    I look forward to working with Senator Stabenow and each 
member of the committee throughout this reauthorization 
process.
    I am also appreciative of the witnesses here today. A 
special thanks to Ms. Cindy Jones, who has been our shotgun 
rider, if that is the proper term, and who has traveled from 
Olathe, Kansas, to be on our second panel. I look forward to 
hearing from our witnesses regarding their experiences with 
these programs and I thank them so much for their testimony 
before the committee and taking their valuable time to come 
here.
    I now turn to my colleague, the Chairperson Emeritus of the 
committee, Senator Stabenow, for any opening remarks she may 
have.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you very much, Mr. Chairman, 
and I look forward to working with you on this important issue.
    We have been talking and looking for ways that we can move 
forward together and I look forward to working with you on 
this, as well as the entire committee, as we continue the work 
we began last year to strengthen child nutrition programs.
    I want to thank the witnesses, as well, for testifying 
today. You bring very important perspectives from all sides of 
the issue. There are a lot of important pieces to this 
legislation and it is important we hear from you and work 
together to move forward.
    As we all know, our children's health and well-being really 
are at a crossroads. Obesity rates in children have tripled in 
the last 30 years. Today, one in three American children and 
teens are overweight or obese. We are now seeing health 
problems typically unseen until adulthood--high blood pressure 
to type 2 diabetes--that are in young people who should be 
focused on Little League or going to the prom. This obesity 
epidemic requires a serious commitment on our part to continue 
moving forward with the nutrition policies we put in place five 
years ago in order to give our children a fair shot to be 
healthy and successful.
    Last year, this committee heard from retired military 
leaders desperate to help improve the health conditions of our 
soldiers and young recruits, and as the Chairman said, the 
School Lunch Program actually started as a result of our 
military leaders and the Department of Defense. In his 
testimony, retired four-star Air Force General Richard Hawley 
said that obesity is one of three main reasons why an estimated 
70 percent of all young people who walk through the recruiters' 
door at the age of 17 through 24, one of three reasons why they 
do not qualify for military service, and they indicated that 
was the largest reason.
    Their concerns are echoed by more than 450 retired generals 
and admirals who are trying to raise awareness about the impact 
that poor childhood nutrition has on our national security and 
its cost to taxpayers. This recruitment crisis also requires us 
to continue moving forward with the nutrition policies we have 
put in place five years ago.
    In addition to childhood obesity issues, we also have the 
second challenge of childhood hunger. As we approach the end of 
the school year, more than 20 million young people--20 million 
students who eat at school because they qualify for free and 
reduced price meals--will struggle to eat any meal, let alone a 
healthy meal, in the summer. This hunger crisis for our 
children requires us, as well, to continue moving forward to 
strengthen our Summer Meals Programs and other supports for 
children.
    We also have millions of pregnant moms and children in our 
communities who are nutritionally at risk, which can lead to 
low birth weights, increased childhood disease, and impaired 
brain damage. That is why continuing to protect and strengthen 
the WIC program is so important.
    It is for all of these reasons and many, many more that we 
meet today, and it is the reason we must take this process of 
reauthorizing our child nutrition programs seriously, and I 
appreciate that the Chairman does.
    The good news is, for the first time in years, it looks as 
though we are beginning to make some progress on these issues. 
Obesity rates have begun to stabilize in some areas. More 
children are eating healthy breakfasts and lunches than ever 
before. Children are eating 16 percent more vegetables, 23 
percent more fruits, according to the Harvard School of Public 
Health.
    I have said many, many times, it seems to me that our 
children are worth continuing the requirement of school meals 
for a half-a-cup--that is not very big, there is not a whole 
lot that goes in this, actually--a half-a-cup of fruit or 
vegetable as part of our commitment--it is not the whole 
commitment, but a very important part of our commitment--to our 
children's health and success.
    But, we know there is much more to do. Nutrition at its 
core is preventative medicine, and child nutrition is about 
leveling the playing field so that any baby, any child, any 
teen, whether they are in Detroit or rural Kansas or a suburb 
of Atlanta or a farm in Iowa, has every opportunity to be 
healthy and successful.
    That is why it is crucial that this committee work together 
in a bipartisan way to ensure these nutrition programs continue 
to operate efficiently and effectively and that we continue to 
move forward for our children. Our children and our families 
are counting on us to do just that.
    Thank you, Mr. Chairman.
    Chairman Roberts. Thank you, Senator Stabenow, for an 
excellent statement.
    All members should be advised we have a vote at 10:30. 
Well, let us just change that. The vote has been postponed 
until 2:00 this afternoon.
    Senator Stabenow. Oh, there you go.
    Chairman Roberts. So we can finish.
    Senator Stabenow. Magic. You have such power, Mr. Chairman.
    [Laughter.]
    Chairman Roberts. It is just amazing what you can do with a 
new Congress, Senator.
    [Laughter.]
    Chairman Roberts. Sorry about that.
    Senator Stabenow. I object.
    [Laughter.]
    Chairman Roberts. Let the record show an objection was 
heard.
    [Laughter.]
    Chairman Roberts. Let me introduce our first panel. Stephen 
M. Lord, Managing Director, Government Accountability Office, 
Forensic Audits and Investigative Service. Mr. Lord currently 
serves as the Managing Director of the Forensic Audits and 
Investigative Service at the GAO. He oversees a highly trained 
staff charged with conducting special audits and investigations 
on major Federal programs prone to fraud, waste, and abuse. Mr. 
Lord has received many awards over his 30-year career, 
including awards for Meritorious and Distinguished GAO Service.
    Mr. Lord, welcome, and I look forward to your testimony. 
Please go ahead, and then I will introduce Ms. Neuberger for 
her statement.

   STATEMENT OF STEPHEN M. LORD, MANAGING DIRECTOR, FORENSIC 
       AUDITS AND INVESTIGATIVE SERVICE, U.S. GOVERNMENT 
             ACCOUNTABILITY OFFICE, WASHINGTON, DC

    Mr. Lord. Thank you, Chairman Roberts, Ranking Member 
Stabenow, members of the committee. Thanks for inviting me here 
today to discuss the findings and recommendations of our 2014 
report on the School Meals Program.
    As you know and as you mentioned in your opening remarks, 
the School Lunch and Breakfast Programs play a very important 
role in providing for the nutritional needs of schoolchildren 
across the nation. At the same time, the National School Lunch 
Program is on OMB's list of high error prone programs due to 
its large estimated improper payments rate, and this 
underscores the need to me to ensure sound controls are in 
place to ensure that $15 billion in Federal funds are spent 
wisely.
    Today, I would like to discuss two things, first, some 
positive actions USDA has taken to strengthen oversight of the 
program, as well as additional opportunities that GAO has 
identified to enhance controls.
    First, in terms of USDA actions, the Department has worked 
closely with Congress to develop legislation that requires 
school districts to directly certify students in the SNAP 
Program, and according to USDA officials, direct certification 
of these students reduces the administrative burden on school 
districts. It also reduces certification errors and helps 
without adversely impacting access to the program.
    Another positive development is State agencies now conduct 
administrative reviews of school districts every three years as 
opposed to every five years, as it was done formerly. We think 
that is a really important part of the oversight process and 
the effort to help ensure correct eligibility determinations.
    Despite these positive actions, we did identify some 
additional areas where they could enhance verification without 
compromising legitimate access to the program.
    First, we believe the school district reviews of 
questionable applications could be strengthened. Of the 25 
school districts we examined, 11 did conduct these so-called 
``for cause'' verifications, but unfortunately, nine school 
districts did not conduct any ``for cause'' verifications of 
questionable applications, and the remaining five districts 
said they would do it on an occasional basis when prompted to 
do so by outside stakeholders. That is why we recommended that 
USDA study this ``for cause'' verification process, figure out 
why the school districts were reluctant to do it, and consider 
issuing additional guidance, if needed.
    We also recommended that USDA consider using computer 
matching to help identify households whose income exceeded 
eligibility thresholds. Under the current standard verification 
process, it is difficult to detect all households that 
misreport income because the so-called standard verification 
process is focused on a small slice of beneficiaries, those 
with annual income within $1,200 of the eligibility threshold.
    For example, in our work, we found that nine of 19 
household applications were not eligible for free or reduced 
benefits, yet only two of these households would have been 
subject to the standard verification process because of the way 
they defined error prone applications. Thus, we think verifying 
a broader window of applications as well as using computer 
matching techniques, could potentially significantly strengthen 
the verification process, and again, without adversely 
impacting access to the program by those truly in need.
    Finally, our report also recommended that USDA explore 
expanding the verification process to include those who are 
deemed categorically eligible for the program by virtue of 
their participation in other public assistance programs, such 
as SNAP, TANF, et cetera. We found that those applications are 
generally not subject to verification as highlighted by a few 
examples in our report.
    We found one household that was certified through this 
process because they stipulated they had a foster child. Yet, 
when we interviewed the household occupants, we found they did 
not have any foster children. Another applicant reported they 
were enrolled in SNAP, therefore, they were automatically 
eligible. Yet, when we contacted the State officials, they said 
this individual was not enrolled in the SNAP program. So, we 
found some examples--again, these examples are not 
generalizable to the entire population, but we found enough 
examples to suggest that USDA needed to take another look at 
that.
    So, the good news is, USDA agreed with all our report 
recommendations and we think the collective impact of all the 
recommendations, when implemented, will help strengthen the 
verification and oversight process to, again, to ensure only 
those truly deserving of the benefits receive them.
    Chairman Roberts, other members of the committee, this 
concludes my prepared remarks and I look forward to any 
questions you may have.
    [The prepared statement of Mr. Lord can be found on page 69 
in the appendix.]
    Chairman Roberts. Mr. Lord, thank you very kindly.
    Our second witness is Ms. Zoe Neuberger. Ms. Neuberger 
joins us today from the Center on Budget and Policy Priorities, 
where she is a Senior Policy Analyst. She works on the school 
meal programs and WIC and has been with the Center since 2001. 
Obviously, she is a veteran and knows what she is talking 
about. I did not mean to insinuate you did not, prior to 2001.
    [Laughter.]
    Chairman Roberts. Previously, she was a Budget Analyst for 
these programs at the Office of Management and Budget.
    Welcome, madam, and I look forward to your testimony and 
your insight.

 STATEMENT OF ZOE NEUBERGER, SENIOR POLICY ANALYST, CENTER ON 
          BUDGET AND POLICY PRIORITIES, WASHINGTON, DC

    Ms. Neuberger. Thank you very much for the invitation to 
testify today on improving accuracy in the school meal 
programs. As you said, I am a Senior Policy Analyst at the 
Center on Budget and Policy Priorities, a nonprofit policy 
institute that conducts research and analysis on budget and tax 
policy as well as poverty and social programs.
    Out of our roughly 50 million schoolchildren, about 30 
million eat a school lunch on a typical school day. That is 
extraordinary reach, and that figure includes more than 21 
million low-income children for whom school meals may be the 
healthiest and most reliable meals they get.
    There are also nearly 100,000 schools that operate the meal 
programs and they do a remarkable job. They process 
applications, provide healthy meals, and keep track of the 
eligibility of each student so they can claim the appropriate 
Federal reimbursement. Their work means that we have fewer 
hungry children and that our students are better prepared to 
learn.
    As you can see, the school meal programs play a vital role 
in children's health and well being. They must continue to play 
this role while also administering the programs accurately. The 
Department of Agriculture just estimated that the net annual 
cost of lunches that did not meet the nutrition standards was 
$444 million. That is not acceptable. The programs must make 
sure that Federal funds are used for meals that meet Federal 
criteria.
    Fortunately, we have some powerful tools to address the 
issues. There is a verification process already in place. There 
is a new rigorous review process. USDA has instituted new 
oversight measures. USDA just completed a detailed nationally 
representative study that not only measures errors and their 
costs, but also identifies a great deal of information about 
the causes of errors, which allows for specific and effective 
policy solutions.
    But, there are also challenges to improving accuracy in a 
vast and complex system whose main focus is to educate 
children, not administer the meal programs. As I mentioned, the 
school meal programs operate in nearly 100,000 schools 
nationwide and there is wide variation among them. Their 
staffing, resources, and technological capacity vary widely. 
There is also a lot of variation in the way children get meals 
in the lunchroom or the classroom and how the school checks who 
is in which category and counts the meals.
    Small rural schools have very different operational and 
administrative capacity than large districts that serve 
hundreds of thousands of students. Meal tracking and accounting 
systems can range from paper systems to state-of-the-art 
software.
    Schools are not currently set up to do the kind of 
eligibility determinations that other public benefit programs 
do. The SNAP Program or Medicaid, for example, have teams of 
professional eligibility workers who spend all day, every day, 
sorting out the details of applicants' income and household 
circumstances. In schools, there might be a cafeteria worker or 
secretary who handles meal applications for a few weeks at the 
start of the year.
    So, the question is, given the tools at the program's 
disposal and the system we are dealing with, how can Congress 
improve accuracy in the meal programs?
    An example can help show the way. Beginning with the 2004 
reauthorization and building on that in 2010, Congress set a 
clear expectation for school districts and States to improve 
their use of the rigorous eligibility determinations made by 
other programs, primarily SNAP, to approve children for free 
meals automatically. That is the direct certification process. 
Because the school meal programs are relying on a more rigorous 
income assessment, this approach saves time and reduces errors.
    In the past decade, there have been striking improvements. 
Nearly half of all children approved for free or reduced-price 
meals are now approved without having to complete an 
application. That is an enormous simplification and Congress 
played an important role by setting an expectation and then 
providing tools and support to meet it.
    My written testimony describes many other tailored steps 
Congress and USDA have taken to strengthen the meal programs, 
but there is certainly room to do more. It is important to 
strengthen management and oversight across the board, provide 
more extensive help to districts that persistently struggle 
with errors, and pursue innovations that could open up new ways 
to improve accuracy.
    For example, GAO recommended exploring the use of data 
matching to identify applications that might have incorrect 
information. That is worth trying. USDA plans to develop a 
model electronic application for the first time. That is 
another promising innovation.
    As you consider ways to improve accuracy in the school meal 
programs, I urge you to consider these four questions. First, 
does the proposal have a proven record of reducing errors? Some 
ideas that sound promising, like requiring households to submit 
pay stubs with their application, have not actually been 
effective when tested.
    Second, will it maintain program access for the most 
vulnerable children? Nearly 16 million children live in a 
household experiencing food insecurity. We certainly do not 
want to worsen that problem.
    Third, is it administratively feasible? Adopting a more 
time consuming documentation or verification system might 
prevent some errors, but it could cause others by adding a step 
to the process and would force school staff to spend much more 
time determining school meal eligibility at the expense of 
other educational priorities.
    Fourth, is it cost effective? High-quality information 
management systems can be very effective, but might cost too 
much for a small school district.
    As I noted, it is critical that error reduction strategies 
not reduce access to school meals for children who need them. 
The best way to improve integrity in the school meal programs 
is not through punitive policies, but instead to continue 
sending a clear message to school nutrition officials that 
program accuracy is important, that it will be measured, and 
that Federal officials will support them in implementing needed 
improvements.
    Thank you very much.
    [The prepared statement of Ms. Neuberger can be found on 
page 84 in the appendix.]
    Chairman Roberts. Thank you very much.
    Mr. Lord, do you think that a shift from the current 
verification process that emphasizes ``for cause'' verification 
would enhance the program integrity, and secondly, would it 
have a negative effect on access for eligible participants?
    Mr. Lord. No. I think, again, Senator, there is a way to do 
it without adversely impacting people who truly deserve it, and 
what we found in our work is the ``for cause''--again, that is 
the review of questionable applications--some school districts 
were not doing any ``for cause'' verifications of questionable 
applications. So, there is definitely potential there to do 
that more consistently across school districts.
    I should add, that is a USDA requirement. School districts 
are required to conduct these type of reviews, so any time we 
see that type of inconsistency, that gives us some concern.
    Chairman Roberts. Ms. Neuberger, I would like to know more 
about the point of service, when the child and the cafeteria 
worker interact and determine how the meal will be paid. You 
have cited this in your statement as a step at which many 
errors occur. Can you walk us through what happens exactly at 
the point of service? I am not an expert, but Cindy Jones is, 
and there seem to be a number of points of error. If you could 
clarify that point of contact for me, please, it would be 
helpful.
    Ms. Neuberger. Absolutely, and it sounds like you have had 
a chance to visit school meal programs, which is great. I hope 
that if the rest of you have not had an opportunity, that you 
will find one soon, because there is nothing like seeing it 
firsthand.
    Chairman Roberts. Well, you can lose a little weight there, 
too.
    [Laughter.]
    Ms. Neuberger. But, let me describe a typical scenario. 
There is a lot of variation, but you might have a cafeteria 
with a 30-minute lunch period, dozens if not hundreds of 
students coming through a line. Sometimes there is choice about 
what they take, not always. When they have their meal on their 
tray, they go to a cashier at the end of the line. That cashier 
needs to check the meal to make sure it is meeting nutrition 
standards and figure out who the child is to make sure that 
meal is marked down in the right meal category, free, reduced-
price, or paid.
    Now, that is a process that has to happen very, very 
quickly when you have lots of students waiting in line and it 
is only when they get through that process that they finally 
get to eat. So, this is not a sophisticated interaction. We are 
talking about, maybe a seven-or eight-year-old and a cashier 
and it has to happen really fast, and that does create 
opportunities for errors.
    There are also more innovative models that are being tried 
now that can make it easier for kids to get meals. So, for 
example, for older students, there might be a cart in the 
hallway where you can pick up a breakfast and take it with you 
to class. That makes it much easier for students to eat. It 
also reduces errors related to what is in the meal because they 
are taking a prepackaged meal. But, that is a very fast 
transaction where you have to have a process for knowing who is 
taking the meal and keeping track of that.
    Meals are sometimes served in the classroom. Again, the 
process is decentralized and that means there are sometimes 
opportunities for error and you need to react accordingly.
    Chairman Roberts. Well, thank you for that explanation.
    A question for you both. Is electronic data matching the 
method of additional verification that would be least 
burdensome to school food service providers. Which of the other 
methods of improving program integrity that you recommend will 
cause the least additional burden?
    Mr. Lord. Do you want to go first?
    Ms. Neuberger. Sure. I will go ahead. So, data matching is 
used now at two different steps in the process, first, at the 
certification, which is the approval point, where you can use 
data from SNAP anywhere in the country and certain States are 
allowed to use Medicaid data to automatically enroll kids. The 
application process has been a source of error, and so the 
fewer families have to go through that process, the more that 
can be automatically enrolled, the more you reduce 
opportunities for error.
    The program has been moving in that direction. Over the 
last five years or so, many more students are directly 
certified. As a result, even though there are more children in 
the free or reduced price category now than there were because 
of the recession, schools have to process applications for two-
and-a-half million fewer children. So, that is much less 
paperwork for schools. That is a great step forward.
    The other place where data can be used is at the 
verification stage. That is checking applications. That is 
where I think there is room to look at more data sources, as 
GAO recommended.
    I would caution against just expanding the number of kids 
that get verified because many families do not respond to that 
request, and if they do not, they lose benefits whether or not 
they are eligible. But, data could be a very good way of 
pinpointing applications----
    Chairman Roberts. I am a little worried about the privacy 
issue.
    Ms. Neuberger. Yes.
    Chairman Roberts. Well, I am more than a little worried, 
but at any rate, let me just say that I have a concern about 
holding States accountable to a different standard. We received 
a report from the Inspector General of the Food and Nutrition 
Service indicating, and I think my figures are accurate here 
errors of $1.9 billion in school lunch, errors of $770 million 
in school breakfast. We are not the Pentagon, or, for that 
matter, any other agency, but that is a considerable amount of 
money. I do not know if either one of you have had access to 
that information or if you would like to make a comment on 
that, but it is a concern of the committee.
    Mr. Lord. I agree with you, Mr. Chairman. The improper 
payments rate overall for the programs is about 15.25 percent. 
The good news is it has declined slightly from last year, 
assuming, the data is reliable. At the same time, close to a 
billion dollars of the improper payments were in the 
certification area----
    Chairman Roberts. Let me just----
    Mr. Lord. --errors, so----
    Chairman Roberts. I apologize for interrupting----
    Mr. Lord. Sure.
    Chairman Roberts. --but I am already over time and we have 
gone on a considerable amount of time. We have a lot of people 
waiting. But, basically, we have very large errors--$1.9 
billion in school lunch, $770 million in school breakfast. It 
is my understanding that States are asked to audit every three 
years, but this last report, or the last report that we could 
come up with, was based on data from clear back in 2005. That 
has been ten years. So, I think we are holding the FNS and the 
Federal component of this, which, of course, is now playing a 
much stronger role, to a different standard than that of the 
States, and that is of concern to me. Why ten years?
    Ms. Neuberger. So, the reviews of districts do happen now 
every three years. The kind of report that you are talking 
about----
    Chairman Roberts. Right.
    Ms. Neuberger. --is the nationally representative study 
that USDA does. It is a very in-depth report where they go out 
and interview households, they stand in cafeterias and watch 
what is on the tray to make sure there is accuracy. That kind 
of report is very important. It also is relatively costly and 
takes a long time to do. But, it provides the kind of 
information that can be very helpful to developing proposals 
for how to improve errors because you really get to the bottom 
of what is causing errors and what kind of errors are most 
prevalent and that allows you to design tailored solutions.
    Chairman Roberts. Senator Stabenow.
    Senator Stabenow. Well, thank you very much, Mr. Chairman.
    In this area, we juggle, of course, the desire and the need 
to make sure that we are accurate, that children who need and 
qualify for lunches and breakfasts are getting it as opposed to 
those who should not be. On the other hand, we have situations 
where we do not want to add additional costs to the local 
schools who are juggling between administrative costs and 
actually providing quality meals, and so we have a number of 
issues to juggle.
    I know in the last bill that we did, having community 
eligibility put into place has made a huge difference in 
Michigan in schools being able to be more efficient and have 
more dollars going actually to feeding hungry children.
    But, Mr. Lord, first, it sounds like you were saying that 
the USDA has accepted your recommendations and are moving 
forward to make changes, is that my understanding?
    Mr. Lord. Yes, absolutely. They agreed with all of our 
report recommendations and recently provided an update of steps 
they are taking to implement them, which is, frankly, good news 
for the program.
    Senator Stabenow. That is great. That is wonderful.
    When we talk about program integrity measures, which are 
very important, they can have unintended consequences of 
removing children who actually should be getting food. Could 
you give us some examples when this happens and what approaches 
we can take to actually improve improper payments at the same 
time protecting access for children? What is the best way to do 
that?
    Mr. Lord. Well, as we highlighted in our report, we think 
you can attack this from various angles. Obviously, the 
verification process, we think, could be strengthened. Again, 
you can do it in a way it is not going to adversely impact 
children truly in need. I get the sense the school districts 
are reluctant to do this, though, because of the lack of 
training, expertise, fear----
    Senator Stabenow. Is it extra cost for them and the kinds 
of things that you are talking about?
    Mr. Lord. I believe it would impose some additional cost, 
but in the end, the net result would be, though, you are 
potentially freeing up some additional funds you could devote 
to the program, to those who are truly deserving. So, from a 
cost-benefit standpoint, I think it would be effective, but 
that is USDA's call. They would have to do more additional 
studies on that.
    Senator Stabenow. I think that is always the juggling.
    Ms. Neuberger, talking about the verification steps and the 
additional administrative costs and how we balance that, 
obviously, we want integrity in these programs and we want 
every penny to go to children who need it, but even automated 
tools can be cost prohibitive for some schools that are on 
tight budgets. Do you believe additional investments in error 
reduction could come at the expense of improving meals, and 
when you look at the per meal reimbursement, what funding do 
they get to cover administrative costs associated with meal 
programs versus investments in technology, because I think we 
really need to understand this so that we can do this right.
    Ms. Neuberger. That is a really important question. At the 
school district level, schools get a per meal reimbursement. 
That is for free meals, just about $3 right now, and that has 
to cover all the costs associated with running the program. So, 
it is buying the food, it is the staff to serve it and prepare 
the food, and it is all of the administrative processes. There 
is not a separate funding stream to cover buying a software 
system or putting more staff in place to do these kinds of 
checks. So, it is really important to balance the goals here, 
because if too much of those funds have to go toward 
administrative processes, they are not available for food.
    At the Federal level, there have been grants to States to 
improve their technology systems and those seem to have been 
contributing to a reduction in that kind of error. So, that has 
been a great investment that is paying off.
    Senator Stabenow. The Chairman and I have been talking 
about the fact that particularly for very small schools--I went 
to school in one of those in Northern Michigan--it can become 
particularly difficult, and so we are interested in working 
with you on recommendations as it relates to very small 
schools, as well.
    Chairman Roberts. Yes. Would the Senator yield on that 
point?
    Senator Stabenow. Yes, I would be happy to.
    Chairman Roberts. I have not visited enough schools yet, 
but we are getting there, and there is a tremendous difference 
in the school that Cindy represents and other schools that are 
doing this. They are doing a pretty darn good job. Then you go 
to rural and small town America, and, I mean, real rural and 
small town America. They simply cannot keep pace with the 
regulations, the paperwork, et cetera, et cetera. Training, as 
Mr. Lord says, obviously would certainly help out. They are 
doing the best they can. So, this is not a one-size-fits-all. I 
know that is obvious to everybody here, but I wanted to 
underscore what Senator Stabenow has said. I mean, we have got 
some real challenges out there. Thank you.
    Senator Stabenow. I am going to reclaim my time and take 
one more question--ask one more question, and, Ms. Neuberger, 
for you, as well. We know that simple errors on applications--
and this goes to how we--the bureaucracy and how we do all of 
this for families. It is not only the school, but we need to 
care from the families' end of things in terms of what we are 
adding in bureaucracy. Simple errors on applications are often 
the cause of improper payments. So, it is not just intentional 
lack of reporting. If somebody makes a mistake----
    Ms. Neuberger. That is right.
    Senator Stabenow. --they do not fill in a box, they do 
something that is simple but it creates that error that Mr. 
Lord is talking about. In some cases, errors result in children 
ending up having to pay for meals or they may not be paying for 
meals because of some simple error.
    So, to help make the system more efficient and ensure all 
children receive meals, what are, again, some of the ways 
applications can be improved, the actual application? I know 
that direct certification has been very successful. How can we 
better utilize the data matching to reduce errors so that we, 
again, from the families' end, are not penalizing a child 
because somebody did not check a box?
    Ms. Neuberger. That is a great question. So, the first step 
is to make sure you are relying on data from other programs as 
often as possible, so as few children as possible go through 
the application process. That improves accuracy right there.
    But, then, there will always be children who are going 
through the application process and so you need to have it be a 
simple, understandable form. The process cannot be like other 
programs where you are sitting in an office with a professional 
eligibility worker who can provide a lot of information and ask 
a lot of follow-up questions. Typically, the application goes 
home, families fill it out on their own without assistance, and 
they may not know that you need to multiply weekly income by 
4.3 to get your monthly income. They may not know who they are 
supposed to list in the household.
    It is very clear that people have trouble understanding the 
application, and one indicator of that is that in USDA's study, 
they found that out of the children who did not get meals that 
they actually legitimately were eligible for, three-quarters of 
the time, that was because the family had understated their 
income on the application. So, these are families that bothered 
to apply, they qualified for the meals, but they did not get 
them because they misunderstood what was expected.
    USDA has just issued a brand new revamped application that 
is much simpler than the old version and should be helpful in 
terms of eliciting correct information, and they are just 
embarking on developing an electronic application, which is, 
again, very promising for making it easier for families and 
schools to get the right information.
    Senator Stabenow. Thank you.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    I guess the question I would have would be, do we have 
districts that--Mr. Lord, do we have districts that you have 
knowledge of that are doing a much better job than the average 
in regard to the problem? Are there districts that we can learn 
from that we can then take their knowledge and push to other 
districts?
    Mr. Lord. Sure. I am sure there are, Senator, but 
unfortunately, our scope was confined to the 25 school 
districts we examined in detail. There are thousands of school 
districts across the nation. We did not have the time or 
resources to visit all of those, but we did get some important 
insights just from visiting the few we did examine in great 
detail.
    Senator Boozman. Very good.
    Ms. Neuberger. If I can add to that, with regard to direct 
certification, the use of data from other programs, USDA does 
rank State performance. There are States that are doing a 
fabulous job. West Virginia and Kansas are example of those, 
and you will have people on the next panel who can speak to 
that. Michigan is another great example where they have taken 
advantage of resources and made continuous improvements and got 
a performance bonus and are now directly certifying one hundred 
percent of the kids who they should be. So, there are great 
examples at the State and district level and USDA is working on 
sharing those best practices so that others can learn.
    Senator Boozman. Good. I would like to just also 
acknowledge the importance of simplifying the application 
processes. I was on the school board for seven years, and the 
paperwork on these type of things, our poor special ed teachers 
that work so hard, the paperwork that they endure, and the list 
goes on and on. Again, I would just like to throw my two cents 
in that is something that, that does not cost any money. That 
ultimately saves a lot of money. There is just something about 
government--and I am part of government--that we just add to 
that burden, whether it is the IRS or this or anything else. 
So, again, I think that is very, very important, and hopefully, 
we can work to remedy that.
    Thank you, Mr. Chairman.
    Chairman Roberts. Thank you, Senator.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman, thank you, 
Ranking Member Stabenow, for holding this hearing. This is an 
issue that I care deeply about. I brought apples today, so this 
is the half-cup of apples that I am really hoping we can get in 
every school lunch program across New York. Lots of States have 
lots of great produce, but this is a half-cup, so for parents 
in the room, we know this is not a lot of--you brought your 
half-cup. I am going to put these in the anteroom. Staff can 
have them. I had a pack. They are really good.
    So, since we are talking about this issue of school meals, 
the one issue that I want this committee to remember, because I 
think it is so important, that we should not cut the standards. 
The Chairman said that 40--what did he say, 46 States applied 
for whole grain waivers. Those are just individual schools 
within 46 States, but 90 percent of schools are complying. So, 
we are actually doing quite well in meeting the nutrition 
standards that we set aside in the last bipartisan bill on this 
topic.
    So, I really want to make sure we do not cut the 
requirements, specifically for the half-cup of fruits and 
vegetables, because as Senator Stabenow mentioned about 
obesity, if one in three kids are obese in this country, what 
are we doing? I mean, we need to make sure these kids 
understand they should be eating fruits and vegetables daily, 
that they are a really important part of how they grow, how 
they learn, how they are healthy. The rate of obese adults in 
this country is, again--and your statement about our military 
and having access to the men and women they need to be fit is a 
real concern.
    So, I think it is important for us to look at the dynamics 
of the fruits and vegetables requirement. If we are cutting the 
standards for school meals, I think the kids get the biggest 
hit. Who suffers most financially? Who loses the most business? 
It is actually farmers, and I want to talk about the farmers in 
my State and the farmers in other States on this committee.
    So, in Kansas, they produce honeydew melons, which I know 
my kids love, and that is a great school snack, to have access 
to real melons. In Mississippi, blueberries--kids love 
blueberries. Kentucky, blackberries. Arkansas, edamame, one of 
the most easy, fun vegetables for kids to eat. They love 
edamame. Sweet potatoes--we prefer them fried, but, yes, they 
are very good, too. Cherry farmers in Nebraska, fields greens 
in North Dakota, watermelon in South Dakota, peach growers in 
Georgia, and apple growers in New York. All of those farmers 
across the States represented by this committee would really be 
harmed if we reduced the standards for that half-cup.
    If we cut fruits and vegetables from our school meals, not 
only do the farmers suffer, but I really believe the kids 
suffer. My children benefit so much from having access to fresh 
fruits and vegetables every day, in every meal, and they love 
them as a consequence. They know how good it is to eat fresh 
fruits and vegetables during their meals.
    So, I am hoping that as we debate these issues going 
forward, we can focus specifically on how we keep these 
standards.
    Now, I know both of you are testifying specifically about 
how we can affect and change errors, so I want to talk 
specifically about that for a question. Ms. Neuberger, in your 
testimony, you mentioned that counting and claiming errors 
often result from busy lunchrooms where students have little 
time to select, pay for, and eat their meals. Many of these 
operational errors occur at point of sale. Should we consider 
making more resources available for point of sale systems to 
reduce errors and improve program integrity?
    Ms. Neuberger. Thank you. Certainly, automated systems can 
make the process much easier. They do take an up-front 
investment and so you need to balance the costs involved with 
the simplifications and the error reduction. But, places that 
are using them generally report that they do simplify the 
process tremendously for students and for the school nutrition 
staff, who clearly have a lot of things that they are juggling 
in the lunchroom. And making that process simpler and more 
accurate is a great way to go.
    Senator Gillibrand. You mentioned a bit about the community 
eligibility and that we need to eliminate the need for meal 
applications completely and eliminate much of the potential 
error. What can we do to lower the barriers to CEP 
participation by eligible districts and schools? What are your 
top recommendations to do that?
    Ms. Neuberger. So, it is actually a new option that is 
working very, very well right now. This is the first year that 
it is available nationwide. It builds on options that have been 
available for a long time, which are available to high poverty 
schools so that they do not have to go through the standard 
application process, where, essentially, they would be finding 
the few children who do not qualify for free or reduced price 
meals. In essence, the whole school qualifies to serve meals at 
no charge.
    With community eligibility, they do not take applications. 
They rely exclusively on data from other programs, so that 
reduces errors and opportunities for error. In USDA's report, 
they found, as expected, that there were fewer errors in those 
schools. So, the school districts are realizing what an 
advantage that can be, and what they see is, because they do 
not have to spend time on paperwork, the savings that they get 
on the administrative side can be reinvested in meal quality 
and in serving all students at no charge.
    Senator Gillibrand. Thank you, Mr. Chairman. Thank you.
    Chairman Roberts. Senator Casey.
    Senator Casey. Mr. Chairman, thank you very much, and I 
want to thank Ranking Member Stabenow for having this hearing, 
as well. You are both good to have us gather on these issues. 
We are grateful.
    I wanted to say, first, that we have two major concerns 
when we talk about these programs and about food insecurity. 
One, of course, we should start with the children. In 
Pennsylvania, we have not only a lot of children participating 
in both school lunch and school breakfast--in fiscal year 2014, 
over a million children in the School Lunch Program and a 
little more than 346,000 in the School Breakfast Program--but 
at the same time, we have almost a half-a-million children in 
poverty in our State. So, this is of great urgency and concern 
that we get this right.
    I have always been a believer that these programs, just 
like a number of other programs or strategies, can help us not 
only ensure that more children have a measure of food security 
and get the nutrition they need, but it can also help them 
learn, of course, and I have always believed that kids, if they 
learn more now, they are going to earn more later, and it is 
not just a rhyme, it is backed up by all the evidence.
    The second major concern we have, of course, is not only 
making sure these programs work for kids, but making sure they 
are administered in a way that is consistent with the 
expectations of taxpayers and use taxpayer dollars efficiently. 
So, I appreciate the fact that you are bringing to us not only 
kind of a diagnosis of where the problems are, but also 
remedies for improving both programs.
    Ms. Neuberger, I will get to you in a moment on kind of a 
broader question, but I want to ask you a specific question 
about the WIC Program, the Women, Infants, and Children 
Program. Your firm, the Center on Budget and Policy Priorities, 
just released a report with regard to new research linking 
prenatal and early childhood participation in WIC with improved 
cognitive development as well as academic achievement. So, kids 
whose moms are participating in the WIC Program while pregnant 
scored higher on assessment of medical development at age two 
than similar children whose mothers did not participate.
    So, in light of this link between a program like that, the 
WIC Program, and the cognitive development of the child, and my 
learn means earn connection, can you walk through some of the 
benefits of WIC and why we should focus on that, as well?
    Ms. Neuberger. Absolutely. WIC provides nutrition 
assistance for pregnant women and very young children and those 
are critical times for brain development, as we heard earlier. 
There is a large body of research that shows that WIC is 
successful in bringing participants very important 
improvements--improvements in health, improvements in their 
nutrition, eating healthier foods, improvements in 
breastfeeding rates, better connections to preventive care, 
higher immunization rates, and new findings on the link to 
cognitive development. So, that is a panoply of ways in which 
participating in the program can help low-income families and 
at this critical time, so that they get off to a better start.
    Senator Casey. I appreciate that, and I think it bears 
repeating.
    Speaking of things we should repeat, could you walk through 
the four questions again that you had in your testimony, in 
other words, questions we should consider when we are analyzing 
these programs. I think it is very important to have that 
guidance. I just want to have you repeat it, because around 
here, it helps to repeat things.
    [Laughter.]
    Ms. Neuberger. Okay. Absolutely. So, does the proposal have 
a proven track record of reducing errors, and that is where all 
the research on this subject can be very helpful.
    Will it maintain program access for the most vulnerable 
children? So, of course, when you are reducing error rates, you 
do not want to have the unintended consequence of making it 
harder for kids who qualify for the meals and need them to get 
them.
    Then, is it administratively feasible? So, that goes to, 
there is not a one-size-fits-all solution. You need to think 
about what works.
    Fourth, is it cost effective? So, will the error reduction 
be worth the cost involved in setting up the system and not 
make it such a cumbersome process that it is more difficult for 
schools to administer.
    Senator Casey. We may put those on a chart so we can have 
them in front of us.
    [Laughter.]
    Senator Casey. In the very limited time I have, Mr. Lord, I 
just want to ask you one question, and I may submit more to 
both of you for--written questions.
    On this question of direct certification, do you think that 
increasing participation in community eligibility and direct 
certification would help reduce improper payments?
    Mr. Lord. I believe it could, if applied properly. We 
looked at the direct certification for 23 households. We found 
errors in a couple, but in our discussions with USDA officials 
and as Ms. Neuberger pointed out, that would greatly relieve 
the administrative burden at the school district level and has 
potential for streamlining the entire process.
    You just want to make sure the initial certifications at 
the SNAP level and other program levels are being done 
correctly. But, it is--I should point out, the improper payment 
rate in the SNAP Program is much smaller than the improper 
payment rate in the School Lunch Program, so that suggests that 
is a good way to go, based on just that comparison alone.
    Senator Casey. Thank you.
    Mr. Chairman, thank you for the 45 extra seconds.
    Chairman Roberts. Any time the gentleman requests 
additional--well, not maybe any time.
    [Laughter.]
    Senator Casey. I am ready.
    Chairman Roberts. Thank you, Senator Casey.
    I want to thank the first panel. Thank you so much. The 
first panel is now concluded. I am sorry.
    Senator Stabenow. Is that because he is so far away?
    Chairman Roberts. Senator Thune, I apologize to you, sir.
    Senator Thune. Well, thank you, Mr. Chairman. I know that I 
am down here a long ways----
    [Laughter.]
    Senator Thune. --at the children's end of the table, so----
    Chairman Roberts. Well, a man has got to do what he has got 
to do.
    [Laughter.]
    Senator Thune. That is right.
    I appreciate you and Ranking Member Stabenow holding this 
hearing today, and as we do prepare to reauthorize the child 
nutrition legislation this coming year, we need to, I think, 
take an objective and bipartisan critical assessment of the 
programs and make sure that they are working in an efficient, 
effective, and accountable manner for the people that they are 
intended to help.
    I have serious concerns about the error rates in the 
National School Lunch and Breakfast Programs, which for the 
2013 and 2014 school year were 15.8 percent and 23.1 percent, 
respectively. Improper payments for these programs total almost 
$2.7 billion for the 2013-2014 school year, which is a 
staggering amount. Obviously, no one in this room wants any 
child to go hungry. We all know there are legitimate needs for 
food assistance. But, when we have programs with error rates 
that are $2.7 billion just for one school year, we simply have 
got to figure out how to put this money to better use.
    There is another area that I think needs attention of this 
committee and that is eligibility standards for these programs. 
Do the current standards result in child nutrition assistance 
being distributed wisely to the people who really need it the 
most?
    Just a couple of questions, if I might, for this panel. I 
would love to hear from the second panel, too, about the 
rigidity in the programs and the people who are actually out 
there on the front lines. I would love to get a sense for the 
standards and just the lack of flexibility that exists today 
and doing a better job of balancing nutritional offerings. So, 
anyway, I would love to hear from the second panel about that 
subject.
    But, I guess the question I have for you is what would you 
change about the eligibility requirements of the current child 
nutrition assistance cadre of programs as they exist today?
    Ms. Neuberger. I think the important thing when you are 
talking about reducing errors and improper payments, which I 
think we all agree is a very important endeavor, is to create a 
culture of compliance with the rules. We want the rules to be 
followed. I do not think the rules themselves are the problem. 
I think it is helping people understand them, and there are 
lots of different people involved in the system. It is families 
when they are filling out applications. It is schools when they 
are running programs. It is States when they are administering 
them. So, I think that kind of day in and day out work is what 
is most important to reduce errors and reduce improper payments 
in the program.
    Senator Thune. Okay.
    Mr. Lord. I would second that and also add it is important 
to, as a former President once famously stated, it is important 
to not only trust, but verify. I would add to that and say it 
is important to trust and verify in a meaningful manner. We 
found through our work that the verification process could be 
strengthened in several important ways, and I think that will 
serve the reduced improper payments rate and help drive that 
number down.
    Although, I should add, in response to what Ms. Neuberger 
noted on the counting side of the equation, over $700 million 
of the improper payments estimate is due to simple counting 
errors at the school district level. So, I think that is an 
area that could be addressed, as well, through technology, 
better training. So, there are some important ways they could 
drive that number down and enhance the operations of the 
program.
    Senator Thune. So, do you believe that more State and/or 
local input on establishing eligibility requirements could be 
helpful in cutting down on some of the incorrect reimbursement 
rates?
    Mr. Lord. Well, personally, I think there are two ways to 
go at it. You have to, first, explore the potential of data 
analytics and computer matching to help simplify the process, 
make it more efficient, and you can do that at the State agency 
level without getting down to the school district level.
    But, at the school district level, again, I think there 
needs to be greater awareness about how to fill out 
applications completely, the need to periodically do spot 
checks of what people are reporting.
    So, I think you have to approach it in a multi-faceted 
manner, centrally at the State agency level as well as the 
school districts. As Ms. Neuberger pointed out, though, they 
are not as well equipped to do real vigorous verification.
    Senator Thune. Right.
    Ms. Neuberger. One of the things that makes the school meal 
programs easier to understand and administer now is that they 
do have one set of rules that applies across the country, and 
that is an important simplification and source of fairness. I 
think it is important to consult with districts and States 
about what will work to help the programs run more smoothly and 
more accurately in their areas. But, that is not the same as 
considering changing the eligibility rules or other program 
rules.
    Senator Thune. Right. Do you think that categorical 
eligibility for school meals ought to be eliminated?
    Ms. Neuberger. No. That is basically the source of 
tremendous simplification. I mean, that is what allows families 
who are already getting SNAP benefits, where there is a very 
rigorous eligibility determination, to get free school meals. 
Their income levels are going to be at or below the levels that 
are already set within the school meal programs. So, basically, 
that is a tremendous simplification right now and I think it--
--
    Senator Thune. So, if that is true, then which ones should 
be utilized the most?
    Ms. Neuberger. Right now, anyplace in the country is 
allowed to use data from the SNAP Program or TANF cash 
assistance. There are certain other categories, like children 
who are homeless or in foster care, that can also be 
automatically eligible. Medicaid is only available for use in 
seven States right now, and so that is a potential--there is 
untapped potential there where additional States could benefit 
from utilizing that data.
    Senator Thune. Good. All right. My time has expired, Mr. 
Chairman. I thank this panel and will look forward to the 
testimony from the next one. Thanks.
    Chairman Roberts. Senator Stabenow.
    Senator Stabenow. Thank you, Mr. Chairman.
    I just wanted to do a quick follow-up, Mr. Lord. You were 
talking about how, as we look to simplification but also making 
sure we are rigorous in our oversight standards and so on, you 
indicated the SNAP Program has a smaller error rate, which it 
does, one of the smallest in the Federal Government in terms of 
overall errors, and that there is a larger error rate in the 
food program. So, if we were going more in the direction of 
tying it to SNAP, community eligibility, which has saved a lot 
of money in Michigan and been very effective, is that what you 
were suggesting, looking at SNAP, which actually has more 
rigorous oversight, lower error rate, and tying it to that 
might actually accomplish both goals of simplification and also 
tightening things up?
    Mr. Lord. That was--yes, that is what I was suggesting, and 
I was citing the OMB figures on their estimated improper 
payments rate.
    Senator Stabenow. Right.
    Mr. Lord. You know, there is some degree of imprecision 
with it, but that alone suggests SNAP, even though there are 
some errors in the program----
    Senator Stabenow. Right.
    Mr. Lord. --when you rely on that method to enroll people 
in the school meals, it is----
    Senator Stabenow. It is actually less----
    Mr. Lord. Yes----
    Senator Stabenow. --because I think it is below three 
percent, if I remember right----
    Mr. Lord. Yes, it is----
    Senator Stabenow. --right now, which is a very--it is 
actually the lowest error rate of anything that we have in----
    Mr. Lord. Yes.
    Senator Stabenow. --agriculture programs, so----
    Mr. Lord. It is around three percent, and again, the 
National School Lunch Program is 15.25 percent.
    Senator Stabenow. Right.
    Mr. Lord. So, it is much higher.
    Senator Stabenow. So, that is an interesting--I just think 
that is an interesting thing for us to highlight.
    Mr. Lord. Although----
    Senator Stabenow. Thank you very much.
    Mr. Lord. Okay. One last point. In our report, even though 
we did note that if you are deemed categorically eligible for a 
program through programs such as SNAP, though, under the 
current verification process, you are excluded completely from 
verification. So, our point was you may want to subject some of 
those categorically eligible applications to scrutiny.
    Senator Stabenow. Thanks very much.
    Chairman Roberts. Senator Klobuchar.
    Senator Klobuchar. Well, thank you.
    [Laughter.]
    Senator Klobuchar. I am sorry. We had a hearing on patent 
reform, which was quite exciting, or I would have been here 
earlier.
    Thank you, Chairman Roberts and Ranking Member Stabenow for 
holding this important hearing to review the child nutrition 
programs in advance of our work to reauthorize the program.
    I worked hard in the last reauthorization to strengthen 
local wellness policies, to update the nutrition standards for 
child care centers and after-school programs, and also to 
ensure that vending machines and a la carte choices would not 
undercut good nutrition in the sale of junk foods. I think we 
all know how important schools are to our kids' nutrition. I am 
proud of the work that we have done in the bill and I think we 
know that we have seen some improvements, but I think we also 
know that there are problems ahead if we do not continue this 
work to make sure the kids get the most nutritious meals 
possible when they are at school.
    The 2010 reauthorization of child nutrition programs 
specified that USDA conduct a review of food items provided 
under the WIC Program at least every ten years based on the 
Institute of Medicine recommendations. Some have argued that 
the review process should be expedited in certain 
circumstances.
    Ms. Neuberger, does the current review timeline keep pace 
with scientific advances on the nutritional quality of fruits 
and vegetables, and what can be done to improve the process?
    Ms. Neuberger. There is a review underway right now, so I 
just want to make sure everybody is aware of that, so that is 
working as planned. The rule is actually that the review has to 
happen at least every ten years, but it can happen more often 
than that if there is reason. So, if there were important 
changes in dietary recommendations, that might warrant a more 
frequent review. But, I think the rule that is in place makes 
sense.
    Senator Klobuchar. Okay. Very good.
    It has been estimated by the Journal of Health Economics 
that nearly 20 percent of annual medical spending in the U.S. 
is obesity related. How does this factor into the decision 
about how we reauthorize this bill? Either of you can answer 
that.
    Ms. Neuberger. I think we have talked early on----
    Mr. Lord. Yes.
    Ms. Neuberger. Both programs, school meals and WIC have 
tremendous benefits in terms of helping children achieve the 
health and development outcomes you would like to see as well 
as better preparing them for learning. So, they are critical 
investments, particularly for low-income children who may not 
have access to adequate nutrition elsewhere, to help them 
develop properly, stay healthy, and be ready to learn at 
school.
    Senator Klobuchar. Okay. Thank you.
    Could you comment, also, on the potential cuts to the child 
nutrition programs under the fiscal year 2016 budget resolution 
that we have just been talking about on the floor, Ms. 
Neuberger?
    Ms. Neuberger. I mean, broadly speaking, we would be very 
concerned about the consequences for low-income families in 
that agreement. That is not specific to these programs, but 
across the programs that families rely on when they are 
struggling to feed kids or make ends meet.
    Senator Klobuchar. Yes. Just one last thing, back to the 
WIC Program that we just talked about. As it plays a critically 
important role in promoting the health of pregnant and 
postpartum mothers as well as young children. The continued 
success of the program is contingent on sound cost control, and 
I understand that States that are given flexibility to develop 
their own food list based on USDA's minimum standards, and yet 
some of the States leave lower-cost products off the list of 
approved foods. Without dictating to States their WIC food 
list, how can we incentivize States to consider cost controls 
when determining approved food items?
    Ms. Neuberger. Just to be clear, WIC is a Federal program. 
Most of the rules are Federal. There are certain areas where 
there is State flexibility. States have a built-in incentive to 
contain costs in WIC----
    Senator Klobuchar. Because they have limited----
    Ms. Neuberger. --because they get a limited amount of 
federal funds. So, the more efficiently they can use that 
money, the more people they can serve, and that has been very 
motivating. WIC is a very cost effective program. WIC costs 
have increased at about half the rate of inflation over time. 
It is a very sound investment and States have played an 
important part in that. So, the way the program is structured 
really contributes to that incentive structure.
    Senator Klobuchar. Thank you very much.
    Mr. Lord, did you want to add anything for any of these 
questions?
    Mr. Lord. Not on the WIC, no, Senator. Thank you.
    Senator Klobuchar. Okay. Very good. Thank you very much, 
and I am glad you are here. It is a very important topic, and 
as I said, the last bill that Senator Stabenow was involved in, 
and I know Senator Roberts on the committee and now leading the 
committee, I think was very important and we have made some 
great strides and we need to continue improvement in the 
nutrition standards. Thank you to both of you.
    Chairman Roberts. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair.
    Ms. Neuberger or Mr. Lord, I want to look back at the 
program. I am from North Carolina. I was Speaker of the House 
and I worked a lot with the various school systems. We have 115 
school systems in North Carolina. They seem to be both 
supportive and against certain components of the food nutrition 
programs in terms that they like the potential benefits, but 
they do not like the overhead, or they do not necessarily like 
how the regulations required them to implement the nutrition 
programs.
    Has there been any work done to try and figure out how we 
can measure outcomes, and that is a question I had for you, Mr. 
Lord. I know that you and the GAO are evaluating the 
verification process, making sure the people who are entitled 
to it get it and those who do not do not, but what about the 
more fundamental question of the baseline when this program 
started, the year over year improvement in outcomes, which at 
the end of the day is the children's health and making sure 
that they are fed. Are we measuring those outcomes in a 
scientific way and identifying best practices and intervening 
when they are compliant with the program but not producing 
positive outcomes?
    Mr. Lord. Well, I know Ms. Neuberger is probably more well 
versed on that. But, in terms of the outcome measures for the 
verification process, that was one of our suggestions to USDA. 
They are collecting--they have recently started collecting a 
lot of good information on the so-called ``for cause'' 
verification process, but they mix it together with other 
reporting, so it is unclear to us what the outcomes of all 
their efforts to conduct ``for cause'' verifications, and those 
are reviews of questionable applications. So, at least in that 
one area I am very familiar with, there is broad agreement they 
need to do a better job in looking at outcome measures in that 
area. That is verification related, and perhaps Ms. Neuberger 
can comment on the broader nutritional outcomes.
    Senator Tillis. Ms. Neuberger.
    Ms. Neuberger. Sure. There is generally quite a lot of 
research on the positive benefits of these programs. In 
particular, for example, children who eat breakfast at school 
have been shown to have fewer behavior issues, less absence and 
tardiness, and better performance at school. So, that is a 
clear area where there is a strong tie between participating in 
the meal programs and the kind of educational outcomes we would 
like to see in schools.
    Senator Tillis. One question I have, I do not know if it is 
anecdotal or something that we need to look at more, but you 
hear the stories of putting--I am not going to pick a 
vegetable, because I always make a segment of agriculture mad 
when I do--but let us just say a vegetable that, for whatever 
reason, kids do not like yet, and administrators are concerned 
that they are satisfying the letter of the regulations, but a 
lot of that goes into the trash. Do we have any data to get 
beyond anecdotal to where there may be something else you could 
put on that plate to make sure the young person's belly is full 
and more efficient with what we are putting on their plate?
    Ms. Neuberger. I hope that you will ask that question in 
the second panel, because we have some program operators who--
--
    Senator Tillis. I am going to. I just do not know if I am 
going to be here, so I thought I would at least get it out.
    Ms. Neuberger. Right. There is research on the extent to 
which children are eating the meals. This is not an area that I 
focus on, so it is not my expertise, but it has shown that 
there is less waste under the new rules than there was 
previously, and there is certainly always room for improvement. 
But, it is important to know that things seem to be moving in 
the right direction in terms of figuring out how to get kids to 
eat healthy foods.
    Senator Tillis. I think that is one of the concerns 
expressed by a lot of the people. I met with some members of 
the School Boards Association and Superintendents Association. 
That seems to be a concern that they have expressed and I think 
it is an area we need to investigate. In the next panel, I hope 
I am here so that I can brag a little bit on our farm-to-school 
initiatives in North Carolina, because we have been very 
aggressive in that area and I think it is very beneficial. We 
need to do more of it, convince those kids that Brussels 
sprouts are actually really good, particularly when they know 
where they came from.
    But, I am going to hold and allow us to move to the next 
panel and reserve my questions for that panel. Thank you.
    Chairman Roberts. Well, Senator Tillis, I have been known 
to eat a Brussels sprout or two, but always with cheese on it.
    [Laughter.]
    Senator Tillis. Mine is with bacon.
    Chairman Roberts. Well, with bacon and cheese, it might 
work out, but I have problems with the cheese, too, but then 
that is another whole nut. We do not want to go there at this 
particular time.
    [Laughter.]
    Chairman Roberts. Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman, and thank you 
for this important hearing. Making sure our children have every 
opportunity to succeed is something I think the entire 
committee believes in, and this is a good place to start, when 
we are talking about child nutrition and basically giving them 
the opportunity to grow up healthy and learn throughout the 
day.
    Nutrition standards set in the Healthy, Hunger-Free Kids 
Act, I think, are an important first step to help create a 
healthier and more prepared next generation. But, we should 
also make sure that the schools have the tools they need to 
provide healthy meals.
    In North Dakota, 100 percent of our schools, I am proud to 
say, are meeting the standards, and a couple months ago, only 
one school had asked for a waiver on the whole grain pasta 
requirement. So, that is pretty incredible in a State that has 
a fairly high rate of problems as it relates to obesity.
    However, the Pew study found that 74 percent of North 
Dakota's schools still need at least one piece of school 
equipment, kitchen equipment, in order to meet the standards, 
and Senator Collins and I have introduced a bill to help 
schools purchase new equipment and provide them with technical 
assistance on food preparation and meeting the standards. I 
just want to put a plug in for the School Food Modernization 
Act, which I think will give the tools to many of our people 
who serve our children every day, and by that I mean literally 
and figuratively, the equipment and the tools that they need. 
This is especially important in rural schools, where the school 
districts are already strapped, where you have a small 
population but a huge need for upgrading.
    I have said it many times. My mom was a lunch lady, so I am 
especially partial to the School Lunch Program. I know what 
that had meant. I know what she did every day to try and put 
nutritious and good food on the table. I also knew that there 
were kids that I went to school with where that may have been 
the only meal that they got all day. She took that 
responsibility seriously.
    We have been talking a lot, Mr. Lord, about program 
integrity and making sure people who should not be 
participating in the program are not. Obviously, the surfer 
dude hit the news last year in a big way. But, Ms. Neuberger 
noted that one in four applications were denied despite actual 
household circumstance. We are wondering, as we close the 
loophole and make sure that we do not have fraud in this 
program, how can we make sure more kids get into this program 
who actually need these nutritious meals, who actually need 
that backpack going home on the weekend?
    Mr. Lord. Well, I think you need to raise awareness and 
perhaps do additional outreach at the school district level. I 
think there is good awareness of the program, but in some 
pockets, perhaps there is not. So, that is part of your 
outreach campaign for the program. You always want to be sure 
those who are deserving are in the program, but----
    Senator Heitkamp. So, we have done outreach. I am looking 
for a new solution.
    Mr. Lord. Well, that is probably, in my humble opinion, 
Senator, that is something that the next panel could probably 
better address. They are obviously working at the local level 
and they probably have really good perspective on that. I have 
the global view.
    Senator Heitkamp. But, I think you take my point seriously, 
which is we have fraud, but we also have a lot of kids who go 
home hungry and that has got to be part of this discussion.
    Ms. Neuberger, can you suggest any ideas on how we can 
expand awareness or how we can expand participation for 
children who go hungry?
    Ms. Neuberger. Sure. Awareness is certainly an important 
part of it, making the programs accessible and making sure they 
stay that way. So, we have focused quite a lot on the ways that 
you can improve accuracy and make sure the programs are working 
as they should. It is important at every step of the way to 
make sure that you are not putting barriers in the way for 
families who qualify for the programs and need the benefits. 
That balance is an important way of making sure that the 
programs remain available to students.
    Some of the approaches we talked about earlier, of relying 
on data from other programs, the community eligibility 
provision, where very high-poverty schools can serve meals at 
no charge to all students, are ways to make it easier for low-
income families to get those benefits.
    Senator Heitkamp. Thank you. I yield the rest of my time.
    Chairman Roberts. Thank you, Senator.
    Senator Brown and Senator Bennet have questions for the 
next panel, so I think, unless I am mistaken, this concludes 
the contributions from the first panel. Thank you so much for 
coming and thank you for your very valuable testimony.
    If we could now have the second panel please come forward.
    [Pause.]
    Chairman Roberts. I think, in the interest of time, we are 
going to introduce all of the witnesses. Each one, of course, 
deserves their timely moment of fleeting fame before the 
committee.
    We would like to welcome Mr. Brian Riendeau. He joins us 
today from Louisville, Kentucky, where he is the Executive 
Director at Dare to Care Food Bank. Earlier in his career, Mr. 
Riendeau also led Government and Community Affairs for the KFC 
Corporation--I think everybody understands who that is--and 
served as a Legislative Assistant for Senate Majority Leader--
let me see, that would be Mitch McConnell, would it not?
    Senator Stabenow. Oh, I cannot remember.
    Chairman Roberts. You cannot remember? All right.
    [Laughter.]
    Chairman Roberts. Thank you for being here today. We look 
forward to your testimony.
    Mr. Richard Goff of the Office of Child Nutrition from West 
Virginia and their Department of Education is next. Mr. Goff 
joins us today on behalf of the West Virginia Department of 
Education, where he has served as Executive Director of the 
Office of Child Nutrition since 2005. He has 26 years of 
experience with the West Virginia Department of Education, 
including work with the Child and Adult Care Food Program. In 
his current role, he oversees development of policies and 
program administration related to all child nutrition programs. 
Welcome. I look forward to your testimony, sir, and your 
insight.
    Ms. Cindy Jones of the Olathe Unified School District 233. 
I am especially happy to introduce to the committee Ms. Jones, 
who serves as the Business Management Coordinator for Food 
Service at the Olathe Public Schools in Kansas. She has worked 
for the Olathe Public Schools Food Service for over 20 years. 
She started at 17, as I recall.
    [Laughter.]
    Chairman Roberts. She currently serves as the Public Policy 
and Legislation Committee Chair in the School Nutrition 
Association of Kansas and has also served as Vice President and 
President. I certainly look forward to Cindy's testimony and 
her insight.
    Dr. Sandra Hassink, who is President of the American 
Academy of Pediatrics. She currently serves as President, and 
hails from Wilmington, Delaware. The doctor has focused her 
career on preventing and treating obesity in children. She is a 
pediatrician at Nemours Alfred I. DuPont Hospital for Children, 
where she founded the weight management program in 1988, serves 
as the Director of the Nemours Pediatric Obesity Initiative. 
The doctor began her medical career at the Vanderbilt School of 
Medicine as one of only 12 women in her graduating class. Thank 
you for being here today.
    I look forward to all of your testimony. We will start with 
you, sir, Mr. Riendeau.

 STATEMENT OF BRIAN RIENDEAU, EXECUTIVE DIRECTOR, DARE TO CARE 
                FOOD BANK, LOUISVILLE, KENTUCKY

    Mr. Riendeau. Thank you, Chairman Roberts, Ranking Member 
Stabenow, and the members of the committee. Thank you for 
inviting me here today. I am honored to represent Feeding 
America's network of 200 food banks that serve more than 46 
million people in need, including 12 million children.
    Dare to Care Food Bank works with more than 300 agencies 
across 13 counties in Kentucky and Indiana. Our service area 
spans nearly 4,000 square miles and includes urban, suburban, 
and rural areas.
    I am here today to tell you that child hunger is real, real 
in the communities we serve and it is real across this great 
country, and it is a particularly stark reality when children 
are not in school. But, I am also here to tell you today that 
we can solve child hunger. Through innovative public-private 
partnerships and strong Federal nutrition programs, we can 
ensure all children have access to enough food for an active 
and healthy life. I am here to ask you to help us make good 
programs even better.
    Food banks like mine cannot do our work without the Federal 
Summer Food Service Program and the Child and Adult Care Food 
Program. If certain changes were made to these programs, we 
could reach even more kids in need.
    My food bank provides more than 1,000 hot meals a day to 
kids throughout the year. Children who visit our partner sites 
will not only receive a nutritious meal, but they will have a 
safe alternative to being on the streets. They get tutoring, 
mentoring, and sports. But, far too many children cannot reach 
summer and after-school meal programs, particularly in the 
summer. In fact, the Summer Food Service Program in my State 
reaches less than ten percent of the low-income kids and only 
18 percent nationally.
    Why is that? Well, at Dare to Care, our programs are 
concentrated in Jefferson County, an urban county where summer 
programming and services are available and where many of our 
children can get to sites. The current summer feeding model, 
which requires children to consume meals at a designated site, 
works great in these instances where children have already 
congregated for tutoring and mentoring.
    However, we face two challenges in reaching kids in our 
more rural communities, lack of sites and transportation. Those 
communities simply lack facilities where kids can congregate 
and consume a meal, which makes the on-site feeding requirement 
difficult or impossible to comply with. Even schools in those 
counties that try to provide summer feeding report low 
participation rates because kids are not able to travel to the 
site each day.
    There are several policy changes that you can make that 
would help Dare to Care Food Bank reach more kids during the 
summer and after school, and we believe it will require a two-
part strategy. First, we need to strengthen the site-based 
model by streamlining Federal programs and making it easier for 
community providers to expand the number of sites available to 
children. Currently, we have to operate two different Federal 
programs, one during the school year and another in the summer, 
even if we are serving the same kids the same meals at the same 
sites year round. Moving to one program will allow us to focus 
on feeding kids and not pushing paperwork. Additionally, 
lowering the area eligibility threshold from 50 percent to 40 
percent will expand the number of sites available and align 
SFSP eligibility with other federally funded youth programs.
    Second, no two communities are the same. We need to 
continue to maintain strong national standards and 
accountability while providing new program models that local 
communities can tailor to best meet their circumstances to 
really make progress in closing the summer gap. Dare to Care 
currently runs privately funded programs to fill this gap. Our 
backpack program in rural communities provides children with 
nutritious foods on the weekends and in the summer, but limited 
resources mean that we cannot provide a backpack to every kid 
who needs one.
    We have also looked into mobile summer feeding programs, 
but our rural communities are so small and far apart that the 
time requirement of having kids eat a full meal before we can 
go to the next location, as required, would limit the number of 
children we serve and, therefore, be cost prohibitive. Waiving 
the congregate requirement to allow innovative program models 
in hard-to-reach areas will address these barriers and 
significantly expand the number of children we reach.
    Finally, the summer EBT demonstration projects provide 
another model that has been effective at both reducing food 
insecurity and increasing nutrition. In this model, families of 
children receiving free or reduced price school meals are given 
an EBT card to purchase food at retail stores during the 
summer. We would like to see this program significantly 
expanded in communities that have high need and are 
particularly difficult to reach.
    I would like to close by saying that I am convinced that 
child hunger is a solvable problem. It is going to require 
collaboration between government, business, and nonprofit 
stakeholders, and we are counting on you to make closing the 
summer hunger gap a top priority in the child nutrition 
reauthorization and to give food banks like mine the tools we 
need to serve every hungry child.
    I thank you for this opportunity to testify and I am happy 
to take questions.
    [The prepared statement of Mr. Riendeau can be found on 
page 101 in the appendix.]
    Senator Boozman. [Presiding.] Thank you.
    Mr. Goff.

STATEMENT OF RICHARD GOFF, EXECUTIVE DIRECTOR, OFFICE OF CHILD 
 NUTRITION, WEST VIRGINIA DEPARTMENT OF EDUCATION, CHARLESTON, 
                         WEST VIRGINIA

    Mr. Goff. Thank you for the opportunity to be here today. I 
am the State Director in West Virginia and I would like to give 
you my perspective of the last two reauthorizations and how we 
implemented them at the State agency level.
    In April of 2007, the IOM released the report, ``Nutrition 
Standards for Foods in Schools.'' Nine months later, West 
Virginia adopted those standards in our Standards for School 
Nutrition Policy. The progressive standards were implemented in 
the cafeteria and outside the cafeteria. We required schools to 
have more fresh fruits and vegetables. We also implemented the 
skim and one-percent milk provision. Our sodium standard was 
1,100 milligrams of sodium, which is a little bit more 
stringent than the tier one requirement. We also adopted the 
whole grain rich standard, and this was all back in 2008.
    We do not permit a la carte sales in West Virginia. When 
children enter the cafeteria, they get a unitized meal that 
meets the meal pattern for USDA. We just felt that it was the 
right thing nutritionally for the student and financially for 
the school district.
    Also, outside the cafeteria, we implemented the competitive 
sales rules that the IOM recommended for all foods sold, 
served, and distributed to students during the school day. We 
removed soft drink machines and sugary sweetened beverages. 
Junk food machines, vending machines, and school stores had to 
meet the nutrition standards set forth by the IOM.
    We also addressed healthy fundraising and required that if 
in-school fundraising was to occur during the school day on 
school property, that it had to meet the nutrition standards, 
as well.
    We also instituted the professional standards at the time 
and had a staffing requirement whereby we required continuing 
education hours and a certain level of a degree for the food 
service director at the district level.
    Additionally, we did something different, as well. We 
addressed the food coming in from outside sources. We had done 
everything that we could to ensure that the school environment 
was a safe and healthy learning environment in the cafeteria 
and throughout the school environment, yet we were turning a 
blind eye to what was coming in the back door in the form of 
parties and things of that nature. So, we instituted a 
provision to address that, as well.
    In 2010, in anticipation of the Healthy, Hunger-Free Kids 
Act, we redirected our focus on the technology and we developed 
a State-wide automated electronic system whereby every public 
school in West Virginia uses the same point of sale software. 
Students that come through the public school system in West 
Virginia a lot of times will just put their finger, their index 
finger, on a biometric scanning pad and it logs and categorizes 
the meal. That has increased efficiency and accountability in 
the program and has dispensed with a lot of the over-claiming 
problems that other school districts were seeing.
    The direct certification match when you have a Statewide 
system like this, it is done at the State agency level. We do 
the direct certification match as well as the determination for 
community eligibility at the State agency and we push the data 
down to the schools. Once schools figure their claim for 
reimbursement, that data is loaded up to the district level and 
then pushed to the State agency level. So, the interface goes 
both ways, from the State agency to the school, from the school 
to the State agency.
    By doing that, we were able to have Statewide eligibility. 
So, as needy families typically move around throughout the 
State, what we were able to do is focus on ensuring that their 
meal eligibility benefits were not interrupted. No longer were 
they required to submit an application at the new school 
district. Eligibility followed them, just like their name or 
their student ID did.
    This also made it easy for us to monitor the system and 
improve efficiency and the integrity of the system. The three-
year monitoring cycle, when we went from a five-year to a 
three-year, was not a burden for us. Fifty percent of our 
monitoring is completed in our office, at the central office at 
the State agency level in Charleston before we even enter the 
field. We have a great relationship with the SNAP and TANF and 
foster child folks to get that data electronically. Direct 
certification is then uploaded on a weekly basis.
    We also piloted the second year community eligibility. The 
first year, West Virginia was not selected, but we did it 
anyway. We piloted it at a State agency level on something 
called the West Virginia Universal Free Meals Pilot Project. 
CEP is very alive and thriving in West Virginia. Fifty-four 
percent of all of our public schools are community eligible in 
West Virginia, and I am very proud of that.
    The key to that working was an Act that we brought about 
called the Feed to Achieve Act that was enacted, our State 
legislature passed, that realigned school breakfasts with the 
instructional day. I am about to run out of time. The Act 
passed without a fiscal note and actually built upon the 
programs that we already had in place and ensured that all 
children would receive at least two reimbursable meals per day.
    Thank you, and I will take questions.
    [The prepared statement of Mr. Goff can be found on page 52 
in the appendix.]
    Senator Boozman. Thank you.
    Ms. Jones.

STATEMENT OF CINDY JONES, BUSINESS MANAGEMENT COORDINATOR, FOOD 
   PRODUCTION FACILITY, OLATHE UNIFIED SCHOOL DISTRICT 233, 
                         OLATHE, KANSAS

    Ms. Jones. First, I want to thank you for inviting me here 
today to testify. School nutrition professionals across Kansas 
are working hard to ensure children receive the nutrition 
required for their health and academic success. Hungry children 
simply cannot learn and thrive.
    Olathe Public Schools is the second largest school district 
in Kansas. I am responsible for all financial aspects of our 
nutrition programs. Our department has 275 employees serving 
24,000 meals per day on a $12.5 million budget. Twenty-seven 
percent of our students receive free or reduced price meals.
    At Olathe, we are committed to delivering nutritious meals. 
Thanks to our universal free breakfast in the classroom program 
in five elementary schools, we are serving 850 more healthy 
breakfasts each day, resulting in fewer tardies and absentees 
and better behavior as students are no longer complaining about 
being hungry. We also participate in summer feeding, serving 
1,900 meals per day. Expanding access to these critical 
services has helped our program remain financially sound while 
providing the nutrition that is vital to our students.
    Even before the Healthy, Hunger-Free Kids Act, school 
nutrition professionals had been working hard to improve school 
menus. In our district, we have offered unlimited fruits and 
vegetables, served whole grains, and meet limits on calories 
and unhealthy fats by reducing sodium.
    However, we faced many challenges. Under the new rules, 
many students are now bringing meals from home. Our elementary 
school participation has dropped more than nine percent, and at 
the secondary schools, revenue has dropped as many students 
have stopped purchasing a la carte choices.
    Almost all the students leaving the lunch program are paid 
students. If this trend continues, the school cafeteria will no 
longer be a place where all students go to eat, but rather a 
place where poor students go to get their free meals. We have 
worked for years to fight this stigma, so it is heartbreaking 
to see our progress decline.
    Kansas students are leaving the program for a variety of 
reasons. Paid lunch equity mandates forced many schools to 
raise lunch prices. Many families do not qualify for meal 
assistance, but are struggling financially. As we continue to 
raise prices, some will no longer be able to afford to eat with 
us and the financial losses may force our program to cut staff, 
so they are impacting the community
    Smart Snacks rules have led to huge declines in a la carte 
sales, too, with an estimated loss of $700,000 in revenue. 
Items such as our fresh to go salads had to be taken off the 
menu because the small amounts of meat, cheese, and salad 
dressings do not meet the sodium and fat requirements. Our sub 
sandwich was a very popular a la carte item, but to meet the 
rules, we had to shrink their size, remove the cheese, and 
switch to whole grain bread. Now, we sell very few.
    We also have opportunities to serve diet soda, sugar-free 
gum, and coffee. We have chosen not to serve these items, but 
it just shows you how these regulations do not always make 
sense.
    Despite our best efforts to make meals more appealing, we 
are struggling with student acceptance. We are particularly 
challenged to find whole grain-rich tortillas, pizza crust, and 
other specialty items that appeal to our students.
    Every student must now take a fruit or vegetable with their 
meals, whether they intend to eat it or not. As a result, we 
have seen an increase in good food going to waste in our 
schools. We promote fruit and vegetable choices with free 
samples and ``I Tried It'' stickers to encourage consumption, 
but forcing students to take fruits and vegetables turns a 
healthy choice into a negative experience. Encourage and 
educate instead of require is always the best option.
    Olathe Schools' meal program is self-supporting and 
operates on a tight budget. After labor and supply costs, 
insurance, utilities, and equipment and other expenses, we are 
left with just over a dollar to spend on food for each lunch 
tray. Imagine going to the grocery store with just five dollars 
to spend for a family of four, including milk, fruit, 
vegetable, and a healthy entree. Could you do that every day of 
the week?
    My involvement in the School Nutrition Association of 
Kansas has allowed me to witness the accomplishments and the 
challenges of colleagues all across Kansas and Missouri. Some 
districts have overcome challenges under the new rules, 
particularly those with high free and reduced price 
eligibility, which provides higher reimbursements and 
participation and access to Federal grants and programs. 
However, many districts like Olathe are struggling with reduced 
revenue, declining participation, and the higher cost of 
preparing meals. We do not have access to many Federal grants.
    That is why it is vital to allow flexibility, so all 
programs can be successful for the students and families we 
serve. There is a lot of negative press about school nutrition 
programs asking for flexibility. To me, this is very hurtful. 
We are only asking for flexibility to ensure all school 
nutrition programs are successful. Have faith in the knowledge 
that all school nutrition professionals want the very best for 
America's children. After all, they are our children and 
grandchildren, too.
    Thank you for the opportunity. I will take any questions.
    [The prepared statement of Ms. Jones can be found on page 
66 in the appendix.]
    Senator Stabenow. [Presiding.] Yes.
    Dr. Hassink.

   STATEMENT OF SANDRA G. HASSINK, M.D., PRESIDENT, AMERICAN 
          ACADEMY OF PEDIATRICS, WILMINGTON, DELAWARE

    Dr. Hassink. Thank you and good morning, and I would like 
to thank Chairman Roberts and Ranking Member Stabenow and the 
members of the committee for inviting me here today.
    As I was introduced, I am Dr. Sandra Hassink and I am 
President of the American Academy of Pediatrics, a nonprofit 
professional organization of 62,000 primary care pediatricians 
and pediatric medical and surgical sub-specialists whose 
mission it is to attain the optimal physical, mental, and 
social health and well-being for all infants, children, 
adolescents, and young adults. It is an honor to be here today 
speaking about a subject to which I have dedicated my life's 
work, childhood obesity and the connection between nutrition 
and health.
    The foundations of child health are built upon ensuring the 
three basic needs of every child: Sound and appropriate 
nutrition; stable, responsive, and nurturing relationships; and 
safe and healthy environments and communities. Meeting these 
needs for each child is fundamental to achieving and sustaining 
optimal health and well-being into adulthood for every child.
    Early investments in child health and nutrition are 
crucial. The time period from pregnancy through early childhood 
is one of rapid physical, cognitive, emotional, and social 
development, and because of this, this time period in a child's 
life can set the stage for a lifetime of good health and 
success in learning and relationships, or it can be a time of 
toxic stress when physical, mental, and social health and 
learning are compromised.
    Micro-nutrients, such as iron and folate, have demonstrated 
effects on brain development, but are commonly deficient in 
pregnant women and young children in the United States. These 
deficiencies can lead to delays in attention, motor 
development, poor short-term memory, and lower IQ scores.
    One of the most effective investments Congress can make 
during the prenatal to school-age period is to support the 
Special Supplemental Nutrition Program for Women, Infants, and 
Children, or WIC, and I thank the committee for its strong 
bipartisan support for WIC over the past four decades. WIC 
helps give children a healthy start at life by providing 
nutritious foods, nutrition education, and breastfeeding 
support. Children who receive WIC have improved birth outcomes, 
increased rates of immunization, better access to health care 
through a medical home, and participation may help reduce 
childhood obesity.
    WIC has also played an important role in promoting 
breastfeeding and improving breastfeeding initiation. We 
recommend that the committee seek to find ways to promote 
breastfeeding initiation and continuation even further in the 
WIC program, including by an increase in the authorization for 
the Breastfeeding Peer Counseling Program for $180 million.
    WIC is a targeted intervention for mothers and young 
children with impacts that can be long-term in nature, 
including improved health outcomes, educational prospects, and 
the prosperity of our communities. As a pediatrician, I have 
seen firsthand the importance of nutrition in child health.
    When I started my practice in childhood weight management 
27 years ago, I was seeing adolescents. When I retired last 
October, I had a special clinic for children under five with 
obesity, and we were seeing infants. These children were 
already showing the effects of their increased body mass index 
on blood pressure and measures of blood sugar control. We saw 
obesity-related liver disease in four-year-olds and in children 
with pre-diabetes at age six.
    Today, our children are experiencing an unprecedented 
nutritional crisis resulting in the double burden of food 
insecurity and obesity. The connecting factor for both is 
poverty. The highest rates of obesity are found in people with 
the lowest incomes, and increasingly, the picture of food 
insecurity in children is that of a child with overweight or 
obesity consuming a poor quality diet. Good nutrition is not 
only an essential component of chronic disease prevention and 
treatment, it also helps treat the effects of chronic hunger.
    WIC is just one intervention to address the double burden. 
Families, our schools, child care communities, and certainly 
pediatricians play an important role in shaping healthy habits. 
When you are in the middle of an epidemic, you cannot keep 
doing what you have always been doing. As pediatricians, 
parents, community leaders, and policy makers, we have an 
obligation to ensure that the food we provide our children is 
healthy and nutritious and that we model healthy eating as 
adults.
    Good nutrition in childhood sets the stage for lifelong 
health, and just like we vaccinate to protect against illness, 
we can also vaccinate against chronic disease by providing 
pregnant women and children with nutritional assistance and 
breastfeeding support.
    As we celebrate our mothers this weekend, I urge the 
committee to put mothers' and children's nutritional needs 
first. Our children's health simply cannot wait.
    Thank you, and I will be happy to take any questions.
    [The prepared statement of Dr. Hassink can be found on page 
58 in the appendix.]
    Senator Stabenow. Thank you very much. We will proceed with 
questions. I know the Chairman will be returning in just a 
moment.
    So, thank you to each of you for your comments. We very 
much appreciate them, and Dr. Hassink, thank you very much for 
reminding us all what this is really about in terms of children 
and health and the stake we have in children being healthy and 
having a chance to succeed.
    Mr. Goff, I wanted to start with you, because when I think 
of West Virginia, you have all kinds of schools, you have 
rural, you have urban, and yet your State is 100 percent 
compliant with the new meal standards, including Smart Snacks. 
It looks like you were ahead of the game, anticipating things. 
I want to congratulate you and the State for that, and I am 
wondering how you were able to help your schools in the State 
to be able to achieve the goals. Secondly, when many schools 
rely on the a la carte sales to supplement their budgets, and 
we understand tight budgets for schools, but the change to 
healthier items does not seem to have impacted your schools. 
So, how did you help schools be able to achieve and how is it 
you were able to do that, including a la carte sales, in a way 
that did not hurt your schools?
    Mr. Goff. Okay. Thank you for the kind comments. When we 
adopted the IOM standards in 2008, right after they were 
released, and we put together a very comprehensive 
implementation plan, as far as bringing the schools on board, 
we went through the black eyes like everyone else is going 
through with the Healthy, Hunger-Free Kids Act, but we used 
quarterly workshops. We created a Listserv where we could 
communicate with each food service director through the 
Internet with the push of a ``send'' button. We issued guidance 
memos. We met with principals' groups. We met with 
superintendent groups. We did presentations before boards to 
get the word out and let them know just why the standards were 
changing, why we were doing what we were doing, and the science 
behind it. We created a website called Smartfoods for parents, 
to educate parents of all the changes.
    So, we have had a very comprehensive implementation plan, 
and we staffed at the State agency level in preparation for all 
the changes, as well, as far as grant writers and registered 
dieticians and things of that nature. Our automated system, 
where we have an electronic technology system, point of sale 
system, that is integrated throughout the entire State. They 
just need to know one system. Our reviewers go into the 
schools. They just have to monitor one system.
    Many of the concerns that Mr. Lord spoke of, we do not 
experience in West Virginia because of the direct certification 
and community eligibility determination is done at the State 
agency level and we notify the schools of that information. Our 
free and reduced application is online, so we have had a lot of 
the problems that we experienced with the paper application, 
which has basically become obsolete in West Virginia.
    As far as a la carte, we in West Virginia--when children 
come into our cafeterias, they either get a unitized meal that 
meets the meal pattern that is fully reimbursed by the Federal 
Government regardless of whether it is free, reduced price, or 
paid, and we just felt that that is in the child's best 
interest. We also worked to have salad bars put in place.
    Now, by not offering a la carte sales, that makes the point 
of sale a lot cleaner. There is not a lot of activity at the 
point of sale. So, that lends itself to increased 
accountability as far as logging and claiming the meals.
    But, we have never had an issue with--as far as the revenue 
goes on a la carte sales. You get a unitized meal, which you 
get the full price of the paid meal, and then you get the full 
Federal reimbursement, so you get both revenue streams in West 
Virginia. With a la carte, that was never an issue for us.
    Senator Stabenow. Well, it is very impressive, what you 
have done, and when you look at the automated point of sale and 
the Statewide eligibility so that the schools do not have to be 
focused on that and it moves with the child, I just think that 
is really something that we need to look at and how we can save 
the costs and the paperwork for schools and families and still 
achieve things. So, congratulations.
    Mr. Riendeau, we have had a lot of bipartisan support over 
the years for our summer meals programs and we want to continue 
that. We know we need to strengthen both the congregate and 
non-congregate models. I am concerned that we create more 
flexibility. In Michigan, we have submitted a request for a 
waiver for the congregate requirements, and, in fact, 
unfortunately, it was denied because of the current 
restrictions when a waiver can be issued.
    So, I wonder if you might speak a little bit more about the 
need for flexibility in terms of the summer and what is 
happening in terms of communities, whether it is on where 
children meet or what has been called grab and go or other 
kinds of models, why this is important.
    Mr. Riendeau. Sure. Thank you for that question. In our 
case, at Dare to Care, we serve both urban and rural counties, 
and I think that is where the difference between the two models 
is most stark. The vast majority of the meals that we serve 
through SFSP are served in Jefferson County, the home of 
Louisville. It is an urban county. It is a place where kids--
there are plenty of sites for kids to gather in the summer, 
sites with programming and activities that the kids want to be 
a part of. The kids are there, and it is easy for us to get 
those meals to those kids, have the kids consume them on site, 
and allow us to comply with the requirement of that program.
    In fact, we have--our model is based on a 6,000-square foot 
kitchen that we invested in to build two years ago that 
provides over 1,000 hot meals a day now and takes those meals 
to those sites, and the program works very well there.
    Where the need for flexibility comes in is in our rural 
counties. Our other 11 counties are rather rural. Many of them 
are very rural. Frankly, they just do not have the community 
centers, the facilities for kids to gather. Even if they did 
have those, there is a transportation issue. These kids are 
spread out. Many of them are living in small communities. They 
are dispersed across those counties. In the summer, they do not 
congregate.
    What we would like to see is the ability to work on the 
ground in those communities with government and business 
leaders in those communities to come up with unique 
partnerships and innovative programs that are tailored to meet 
the specific needs of those individual counties, and I think if 
we could have the flexibility that we are talking about here, I 
am very confident that we could reach many, many more of the 
kids in need.
    As I mentioned in my testimony, 90 percent of the kids in 
the State of Kentucky who are eligible for SFSP do not get it 
because there is either no site for them to go to or they 
cannot get there.
    Senator Stabenow. Thank you very much. Thanks.
    Chairman Roberts. [Presiding.] Ms. Jones, Cindy, thank you 
for your help in our traversing Kansas and enjoying school 
breakfasts and school lunches. If you were provided with some--
that word again--flexibility, what changes would you make?
    Ms. Jones. I would go back to serving 50% whole grain rich 
products. This would give us the flexibility to add back some 
of the student's favorite items. Two items that we are 
struggling with are whole grain biscuits because they have no 
flavor and crackers that taste like sawdust. Just some simple 
changes would make a big difference. Also all children love 
chicken nuggets, however the children do not like the new 
chicken nuggets because of the taste of the breading.
    I would go back to encouraging kids to take fruits and 
vegetables, which is what we have always done in our district. 
We keep hearing about, it is just half-a-cup, but we have 
29,000 students in our district. That is a lot of half-a-cups, 
and if two-thirds of those kids eat the fruits and vegetables, 
that is still 10,000 half-a-cups that we throw away, and over a 
year, that is 1.7 million half-a-cups.
    In our district, we want the kids to eat their fruits and 
vegetables. We love our unlimited fruits and vegetables. We 
encourage our students by giving them ``I tried it'' stickers, 
because we want them to eat their fruits and vegetables. But, 
because of all the tight budgets we are having right now, we 
may have to discontinue the unlimited fruits and vegetables. I 
would hate for the students that want to eat their fruits and 
vegetables to lose that opportunity because other students are 
forced to take them and just throw them in the trash.
    Also, I would like to be able to make the decision on 
whether to raise the prices for our meals. I think a lot of our 
students are leaving the program because they can no longer 
afford to pay the meals prices. I was visiting with a little 
girl the other day and she shared with me that her mother now 
makes her choose two days a week to eat with us because they 
can no longer afford to pay the costs. So, I would like for 
district to be able to determine their own meal pricing.
    Chairman Roberts. We have just been joined by the whole 
grains champion of the Senate, who has a bill to exempt that 
standard, and I will give you every opportunity to discuss 
that, Senator Hoeven.
    But, at any rate, let me also ask you, in my travels 
throughout Kansas, there were some schools doing well in 
implementing the standards and they seemed to be the schools, 
obviously, with a lot of resources. In your testimony, you 
mentioned that some high free and reduced-price districts in 
Kansas have also overcome challenges. Is there a way to 
characterize the districts that are having a hard time, or does 
it vary based on the individual community?
    The reason I am bringing this up is that I think the 
distinguished Senator from Michigan and I tend to pay special 
attention to rural and small town schools.
    Ms. Jones. Right.
    Chairman Roberts. Goodness knows, they have problems with a 
lot of things. But, I am not sure I am getting this exactly 
right. Is there a way to characterize the districts that are 
having a hard time, or does it vary based on the individual 
community and what they are doing, how they accept a program, 
et cetera, et cetera?
    I know there has been a lot of talk about training. I am 
trying to get at something here. I do not want to call it the 
attitude of the community or the attitude of the district or 
whatever--not much choice in this regard. But, help me out 
here.
    Ms. Jones. What I am seeing, districts like my own are 
struggling the most. We have a lower amount of free and 
reduced, so a lot of our students are choosing to bring their 
own lunch if you are at a district where there is a high amount 
of free and reduced, those children will continue to eat what 
they are being offered.
    I was actually speaking to a director from a larger 
district and he shared with me that because of the revenue that 
he is losing, he will end up in the red for the first time. 
This is his tenth year working in his district. I believe that 
a lot of the problem is the schools that do not have the high 
free and reduced student, are unable to qualify for grants that 
are available to the schools with a high amount of free and 
reduced students.
    In my district, we have a centralized building and two 
registered dieticians on staff. We have to pay for all of our 
costs. We even pay indirect costs to our districts to help pay 
for the utilities and the custodial staff at the schools. Small 
school districts nutrition programs are housed within one of 
the schools, so they do not have all the extra costs that large 
districts have. Plus, many of them have high free and reduced 
percentages. So, they not only have less expenses, they also 
have more funding available to them.
    Chairman Roberts. Well, you have given me the exact reverse 
of what perhaps some of us may have as a bias and I truly 
appreciate it. That is exactly what I was asking about.
    I have so many different questions here, but I do want to 
get to Senator Donnelly, who I think is next, and then we have 
Senator Hoeven.
    Senator Donnelly. Thank you, Mr. Chairman. I want to thank 
all of you for being here.
    Mr. Riendeau, I know you are based in Louisville, but I 
want to let everybody know that you also--Dare to Care serves 
Washington, Crawford, Harrison, Floyd, and Clark Counties in my 
home State of Indiana. We are grateful to you for that. I 
wanted to talk to you for a second about something that I know 
you have heard about, as well, and that is the area that you 
serve, just outside of it is Scott County, which is just to the 
north of where you serve, and we have had a devastating HIV 
outbreak there and drug epidemic there. The county also has one 
of the highest food insecurity rates for children in our State. 
I was wondering, in your mind, what is the best way to reach 
those kids, to make sure they have had enough to eat, to make 
sure they stay in school and, hopefully, stay away from drugs, 
as well.
    Mr. Riendeau. Thank you, Senator. Yes, I live just down the 
road from Scott County, and I just want you to know, 
personally, I share your pain with what is happening there. It 
is horrific.
    You know, I guess I think in my mind, what is happening 
there sort of points to the larger issue that is before the 
committee with this whole reauthorization, that is, investing 
in our kids today can prevent so many issues down the road. We 
heard that kids who grow up in a food insecure environment are 
going to have all kinds of issues, and as they age up, they are 
going to find themselves with less options for becoming 
productive, self-sufficient members of our community. I am 
certainly not an expert on drug addiction or HIV, but I would 
have to guess that there is a very close correlation between 
the levels of food insecurity that you see in that county and 
some of the problems that folks are facing with no alternatives 
to turn to.
    I think the best way that--one of the great ways that we 
could better serve counties like Scott would be going back to 
the Ranking Member's question about flexibility, giving us the 
ability to tailor programs to be able to provide summer food to 
kids in those rural counties where the current model and the 
current regulations may not fit so well.
    Senator Donnelly. Which ties in a little bit to my next 
question, which is that in some of our rural areas that you 
serve, and obviously throughout the rest of the State and in 
the country, there are Pack a Backpack programs for kids on the 
weekend and such. I know you help to work with that, also. Do 
you think that as you look at that, we would be able to reach 
more food insecure children if those meals in that program were 
eligible for reimbursement, as I know the funds come from the 
private sector for that?
    Mr. Riendeau. Absolutely. That program is--in our case with 
Dare to Care and serving our rural counties, that is one of the 
programs that we do use to reach kids in the rural counties, 
because when kids are congregated at school, it is the one 
place we can get nutritious food to them to take home for the 
weekends.
    Currently, we fund that program entirely with private 
donations, so it is an entirely privately funded program. But, 
in my mind, it is a great public-private partnership because we 
are leveraging those private dollars to help address an issue 
that we currently cannot address with Federal dollars.
    So, the answer is yes. I think if we could find a way to 
involve--find a new revenue source that would allow us to 
provide more backpacks, that would certainly have a positive 
impact on our ability to reach those kids.
    Senator Donnelly. Thank you.
    Dr. Hassink, one of the areas of concern for me with food 
insecurity is also the general obesity that has occurred in 
children and the increase in diabetes type 2. As you look at 
that and as we look at that going forward, what more can be 
done to teach about healthy eating, lifestyles, and how to 
prevent things like diabetes type 2, because they can be so 
debilitating.
    Dr. Hassink. Well, thank you, and certainly we, as 
pediatricians, are seeing the rise in type 2 diabetes in 
younger and younger children, something we never thought we 
would have to deal with as pediatricians.
    I think starting very early with early healthy infant 
nutrition and transition to solid foods and good feeding 
practices are important. Healthy habits for families at home to 
start out right is essential. Many of the children who have 
severe problems in adolescence with their health, with type 2 
diabetes, have already by age five have had obesity. So, early 
intervention. That means family education, stronger links with 
the health care system and food and providing information about 
food programs, providing education, understanding what is 
available for those families in the community, I think, would 
help get them off to a good start.
    In 2007, when we wrote the expert guidelines for obesity, 
we considered all children at risk for obesity in this country 
and we have trained physicians to do preventive counseling for 
everyone because of this problem.
    Senator Donnelly. Thank you very much to the panel. Thank 
you for all your work to try to help our children and our 
families.
    Thank you, Mr. Chairman.
    Chairman Roberts. Thank you, Senator Donnelly.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman. I appreciate you 
holding this hearing today and thanks to all of the witnesses.
    Ms. Jones, you mentioned in your testimony some of the 
difficulties in complying with the lower sodium standards and 
also the 100 percent whole grains requirement. What can we do 
to help in that regard? What do you think the solution is?
    Ms. Jones. We just want to make sure that we do not go 
forward with target two for the sodium, right now we are able 
to get by. We are struggling, but we are able to meet those 
requirements. But, if we go on to target two, that would mean 
we are serving a therapeutic low sodium diet. There will be no 
flavor to the kids' food. I just received an e-mail from my 
director letting me know that our parent surveys are back and 
many of them say that their children are no longer eating with 
us because there is no taste to their food. That is a big 
concern, and if we continue on, I think that will be even a 
larger concern.
    Senator Hoeven. So, last year, I included a provision that 
actually kept the whole grains at 50 percent rather than having 
100 percent of the grain products having to be whole grain 
enriched, and now I have introduced legislation with Senator 
King--this was bipartisan legislation, Senator King from 
Maine--that would both keep us at the lower sodium level, but 
not go to the next target level, and would continue the 
provision that 50 percent of the grain products have to be 
whole grain enriched. Is that something that you think is 
workable and that your State would find workable and that you 
feel other States would find workable?
    Ms. Jones. Absolutely.
    Senator Hoeven. Okay. Then, touch on for just a minute 
issues as far as the competitive requirements for the a la 
carte menu. So, we want to make sure that the school lunches 
are healthy and the kids are eating them----
    Ms. Jones. Right.
    Senator Hoeven. --and then we also want you to be able to 
continue with the a la carte, and I understand there are some 
issues in terms of what you can provide a la carte.
    Ms. Jones. Correct. We would like to be able to serve items 
on a la carte that are also on the reimbursable meal, because 
right now, you have to look at each a la carte item. If it is a 
part of a meal, you can compare that throughout the week and 
fit it into the requirements. So, it is much more difficult to 
be able to get an item to serve on a la carte menu. If we can 
serve it on a reimbursable meal, it should be healthy enough to 
serve a la carte.
    Senator Hoeven. Okay. So, again, just some flexibility 
there----
    Ms. Jones. Some flexibility, absolutely.
    Senator Hoeven. Thank you.
    Mr. Goff, I am glad to hear of your successes in terms of 
implementing the program in West Virginia, and certainly 
flexibility does not mean a rollback of good nutrition 
standards, but, again, making sure that we have healthy meals 
and meals that the kids will eat and that our schools are able 
to make their budgets. Could you tell me how many of your 
schools have applied for an exemption from the 100 percent 
whole grain requirement?
    Mr. Goff. Well, we did the 100 percent, the whole grain 
rich requirement back in 2008. The only thing that has affected 
our schools--and that was implemented across the board in all 
schools and schools are not having a problem with it. The only 
thing that has really touched in West Virginia is the--as it 
relates to pasta, and that is only because we have some schools 
that are having trouble getting the product.
    Senator Hoeven. Right. That is the point. In some cases, 
whether it is pizza or tortillas or pasta, I mean, when we talk 
about whole grain enriched, it is not just the bread and so 
forth. It is all these other products. Hence, some flexibility 
is helpful, and that is why I have advanced the 50 percent 
whole grain enriched.
    You have had a number--I actually have the number. You have 
got quite a few schools that actually have applied for 
exceptions. Would not some flexibility be helpful to them here?
    Mr. Goff. Well, I cannot speak for the schools. I think 
that when you are looking at granting waivers, my fear of that 
would be that it would give industry a pause to come on board 
and make the products more available at a sooner time. We had 
lots of waiver requests when we were implementing some of our 
standards as it relates to professional standards or even 
competitive sales, and I think if you have a good standard that 
is in the child's best interest, then you hold that standard.
    I certainly cannot speak for a State like Kentucky, but our 
participation in West Virginia in our school meals is the 
highest it has ever been. Our breakfast participation is 
starting to exceed that of lunch. So, I think in West 
Virginia--and we have cooperative purchasing groups that pool 
their efforts to get the product. I think we are on the right 
track there.
    Senator Hoeven. But, you--so, you do not feel there needs 
to be any flexibility, even though you have schools that have 
applied for exemptions?
    Mr. Goff. Well, I do not have--know the number of those 
schools----
    Senator Hoeven. Twenty-two.
    Mr. Goff. Twenty-two schools out of--and we have about 700. 
So, certainly, that is cause for an exemption, or a waiver 
until the product can become available. But, it was my 
understanding that it was more related to pasta.
    Senator Hoeven. I understand in some cases it relates to 
pasta or tortillas or some of these other products, and that 
makes sense, if they are healthy and the kids will eat them.
    I will wrap up here, Mr. Chairman, but the current dietary 
guideline recommendations allow for some refined grains, as 
well. So, if we allow it in the dietary guidelines, which is 
for all Americans, why would not some flexibility in that 
regard make sense for school kids, too?
    Mr. Goff. I understand.
    Senator Hoeven. Thank you. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Stabenow, you had an additional 
question?
    Senator Stabenow. I do. Thank you. I do have some, and 
thank you again to all of you.
    I guess I am trying to put in perspective--I realize we are 
making changes in the last five years, and the behaviors are 
always hard to change where it is sort of in the process of 
moving in the direction, all of us, of wanting to be more 
focused on health and wellness, and we all know the benefits of 
that, and we know sometimes change is hard.
    I do have to say, I have seen--I have visited a lot of 
school districts, some very creative, where you take the 
vegetable and you put green peppers and onion in the tacos and 
the kids do not even know they are getting it, which is great, 
and others where someone says, no, the government says you have 
to eat broccoli. So, there is a very different reaction 
depending on how things are presented, and we want to be in the 
creative process of that where we are sneaking it in and kids 
do not even know beans are a vegetable, right?
    But, Mr. Goff, I wanted to ask you about specifically the 
exemptions for whole grains. My dear friend, and I really mean 
that, from North Dakota has been very passionate about this. 
But, yet, out of thousands of schools across the country, we 
have had only 350 requests for waivers on whole grains. To put 
that in perspective, 350 requests across the country, there are 
900 school districts in Michigan alone. One request in North 
Dakota, four requests in Kansas. I am wondering, have you 
received very many requests at this point, and again, why would 
you believe your schools would not be asking for the 
flexibility of the waiver that we put in place at this point?
    Mr. Goff. Well, I could not give you the number. We have 
received some requests. But, it is my understanding in talking 
with the cooperative purchasing groups that comprise our State 
that the request is for pastas and it is because the product is 
not readily available for them to purchase, and it has 
something to do with that particular product has trouble 
maintaining its consistency. So, until more of that type 
product hits the market, some of our schools were struggling 
with it.
    But, as far as the whole grain rich requirement, we have 
had that in place since 2008. Students are very accepting now 
of what they call the brown bread. So, I think it is a good 
standard and I think we just need to wait for industry to come 
up to speed.
    Senator Stabenow. I am wondering, also, there are 
differences between larger and smaller districts and some that 
have the community eligibility, and as Ms. Jones was saying, 
just in larger districts with their smaller number of students 
that are qualified for free and reduced lunches and so on.
    Again, in West Virginia, how do you handle that with a 
larger district where there is a smaller number of children and 
sort of the economics of that for schools, because I am sure 
that is different. So, have you--how have you handled that in 
terms of districts where virtually all of the children are 
qualifying for free and reduced lunch versus a district where 
it may be less than 50 percent?
    Mr. Goff. As far as----
    Senator Stabenow. As far as sort of the economics of 
funding and so on, because that seems to be one of the 
concerns, is that----
    Mr. Goff. With community eligibility----
    Senator Stabenow. --large districts are losing money 
because there are fewer children being reimbursed on free and 
reduced lunch and other children are not buying lunch.
    Mr. Goff. That is a great question, and we anticipated 
those types of things before we implemented community 
eligibility. Like I said, the first year that they piloted 
that, we were not selected, so we did our own version called 
West Virginia Universal Free Meals. We knew that if we just 
selected nine districts, or however many we did select, and 
said that you now can have breakfast and lunch at no charge, if 
we did not fundamentally change something, it was going to 
create a problem with their budget.
    So, we worked in conjunction with our State legislature and 
we passed Senate Bill 663, called the West Virginia Feed to 
Achieve Act, and what that did, one of the provisions of that 
act, is it realigned breakfast with the instructional day. See, 
we were offering breakfast at the worst possible time, as most 
schools do, at the start-up of school, when the bell is 
ringing, the buses are arriving late, kids want to talk to 
their friends. So, we have a State law that mandates that 
school breakfast can no longer compete with the start-up of 
school. It has to be offered either breakfast in the classroom, 
breakfast after first period, or breakfast after the bell, or 
some combination of that, in every school, at every grade 
level.
    What it has done, that in conjunction with community 
eligibility, our breakfast participation is starting to exceed 
that of lunch. Now, financially speaking, that is very good for 
the programs because the margin of profit, if you look at the 
Federal reimbursement versus the cost to produce a breakfast, 
the margin of profit is higher on a breakfast than that of a 
lunch. Plus, it is the most important meal of the day.
    Now we have the naysayers in the beginning, for example, 
the teachers that did not want the food in the classrooms, will 
now go to bat for the program and are actually promoting the 
program because they can see such a huge difference in test 
scores, student attentiveness, reduced tardies, fewer trips to 
the school nurse, fewer behavioral problems. It has really 
changed the way we are educating kids in West Virginia.
    We have one school district that, district wide, Mason 
County, their breakfast participation last year averaged almost 
90 percent. Ninety percent of the children in that school had a 
breakfast on a daily basis. That is how we have done it. 
Through the economies of scale, the cost to produce one more 
breakfast or one additional breakfast, the cost is not that 
significant, but the Federal revenue coming in on that one more 
breakfast is substantial.
    Senator Stabenow. Thank you very much.
    I know my time is up, Mr. Chairman, so thank you.
    Chairman Roberts. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and I apologize 
to you and the Ranking Member for running back and forth today. 
This is such an important hearing and such an important topic 
for Arkansas and the rest of the country. I am on another 
subcommittee, though, that also is very important and it has to 
do with violent crime, gangs and things like that, which, 
again, all of these things go together. So, like I say, I 
apologize for running back and forth.
    Mr. Riendeau, and again, I know that these things have been 
discussed already and things, but it is such an important thing 
for Arkansas. Our summer meal participation has increased in 
recent years and is very, very important. However, we struggle 
to reach children in rural areas. Can you talk a little bit 
about the challenge that you have experienced with the meals 
program, and then, also, based on your experience, can you give 
us some concrete recommendations as to what we can do to 
overcome some of those challenges.
    Mr. Riendeau. Sure. You know, as I said before, we have--
Dare to Care serves both urban and rural counties, and probably 
much like your rural counties, particularly in Indiana, the 
distance between the communities is so great and the 
communities are so small that it is just very, very difficult 
to find locations where kids can go and congregate. Unlike our 
urban counties, there are not robust Boys and Girls Clubs with 
all-day programming and lots of things that these kids want to 
get to.
    So, the challenge is how do we find a way to get these kids 
access to summer food based on the realities of the county in 
which they live. So, we have looked at several different 
options. One of the thoughts we have is we have looked at--we 
actually have a bus. We have a school bus now, and we are 
actually looking at the possibility of preparing meals in our 
community kitchen, loading those in Cambros, and putting them 
on the bus and taking them out to the rural counties and simply 
driving to the hollas [phonetic], where you will have a 
community of 20 families, and dropping the meals off and 
letting the kids consume them as the bus goes away and goes to 
the next community.
    The challenge with that model under the current rules is 
unless the kids--unless we stop and the kids eat the meal on 
the bus and we count the number of children, we cannot be 
reimbursed. So, the sustainability of that model is doubtful 
and that is kind of the challenge that we are facing, which is 
why, one of the things we would like the committee to consider 
is allowing us to look at more flexible models in those 
counties, like I am sure in Arkansas would probably benefit 
deeply from that. Let us look at those and make those eligible 
for reimbursement, as well.
    Senator Boozman. Right. Mr. Goff, you mentioned that you 
started your program in 2009, and I think that is correct, 
okay, and I think that our States need to do as they feel like 
is best. Can you tell us, based on 2009 to now, what are your 
obesity levels? Have they gone down, or have they flattened 
out, or do they continue to go up, or do you have any knowledge 
about that?
    Mr. Goff. In West Virginia?
    Senator Boozman. Yes, sir.
    Mr. Goff. We adopted those standards in 2008, and our, I 
think----
    Senator Boozman. What has happened as a result?
    Mr. Goff. I think our obesity rate has leveled off. I do 
not have the data, but I do know that our school environments 
are healthier. In West Virginia, hunger and obesity live side 
by side. In trying to put the finger on the culprit, we have 
done everything in our power to provide safe and healthy 
learning environments for our kids.
    Senator Boozman. No, and I agree with that, totally. The 
only reason I mentioned that is that this really does go 
together with a whole host of other things----
    Mr. Goff. Mm-hmm.
    Senator Boozman. --and, so, we need to address this. Like I 
say, I do not disagree that you all are doing a great job in 
the sense of doing what you feel like is best for your kids, 
but it is--I think one of the problems we run into is that we 
feel like if we just do this or that in this particular area, 
we are going to solve our problem, and the reality is, with 
P.E. and lots of other things, after-school activities, all of 
that goes together, and if we do not do it all, then we are 
going to be in trouble.
    Ms. Jones, you mentioned in your testimony the importance 
of flexibility. Can you talk to us a little bit about 
specifically the kind of flexibility that you would like, or 
maybe in some areas or two.
    Ms. Jones. Sure. In a la carte menu the fact that we had to 
take a healthy choice off like a sub sandwich with turkey and 
cheese, does not make sense to me. That is a healthy item. We 
would like to have that flexibility to put those type of items 
back on our a la carte items.
    Having the decision to be able to raise the price of a meal 
or not, that should be determined by each district by what they 
feel their enrollment would be able to pay for. We want to be 
able to keep children coming into the cafeteria, because we 
cannot serve them nutritious meals if we do not have them 
eating with us.
    These are examples of the type of struggles that we are 
asking for flexibility. With the fruit and vegetable 
requirements, we really want to encourage our kids. That is 
something we have always thought was very important. But, we do 
not want to lose our unlimited fruits and vegetables because we 
cannot afford to offer them.
    Senator Boozman. Thank you. Thank you, Mr. Chairman.
    Chairman Roberts. Dr. Hassink, I apologize that we have not 
paid more attention to you, especially with all of the work 
that you have done.
    Senator Boozman. I would have if I had more time.
    [Laughter.]
    Dr. Hassink. Thank you.
    Chairman Roberts. But, and this is the typical situation 
where the Chairman of a committee is answering the question 
that I would have asked you. You made some excellent points 
with regard to a lack of specific nutrients at a specific time 
and the detrimental effect that that has had on attention and 
development, short-term memory, IQ scores----
    Dr. Hassink. Yes.
    Chairman Roberts. --everything that everybody strives for. 
But, if they miss the boat, they miss the boat. I am not asking 
you to expound upon that research. I think it is self-evident. 
But, I want to let you know how much we appreciate your coming 
and your statement.
    I am now moving to the conclusion of our hearing this 
afternoon. Yes, it is this afternoon.
    Thank you to each of our witnesses and to the first panel, 
as well, for taking your time, your very valuable time, to 
share your views related to the child nutrition programs. These 
testimonies that have been provided today are very valuable for 
the committee to hear firsthand and to keep on record. Your 
thoughts and insights will be especially helpful as we undergo 
the reauthorization process.
    To my fellow members, I would ask that any additional 
questions that they may have for the record be submitted to the 
committee clerk five business days from today or by 5:00 p.m. 
next Thursday, May 14.
    The committee now stands adjourned.
    [Whereupon, at 12:32 p.m., the committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                              MAY 7, 2015



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



=======================================================================


                         QUESTIONS AND ANSWERS

                              MAY 7, 2015



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              [all]
                              
                              
                              
</pre></body></html>
